No. __-____
IN THE

Supreme Court of the United States
>>>>

ERIC

ANDREW J. CAPUL, DAVID COLON,
R. RODRIGUEZ, and PETER A. DEBLASIO,
Petitioners,

v.

THE CITY OF NEW YORK,
WILLIAM JOSEPH BRATTON and LAWRENCE BYRNE,
in their individual capacity and official capacity,
Respondents.
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
MATTHEW WEINICK
Counsel of Record
FAMIGHETTI & WEINICK, PLLC
25 Melville Park Road, Suite 235
Melville, New York 11747
631-352-0050
mbw@fwlawpllc.com
PATRICK MCCORMICK
CAMPOLO, MIDDLETON
& MCCORMICK, LLP
4175 Veterans Memorial Highway
Suite 400
Ronkonkoma, New York 11779
631-738-9100
pmcormick@cmmllp.com
April 1, 2021

Counsel for Petitioners

i
QUESTION PRESENTED
Respondent, the City of New York (the “City”),
issued an ultimatum to these four highly distinguished Petitioners-Plaintiffs, who were Deputy
Chiefs or Inspectors for the NYPD, demanding that
they immediately resign or that they would be
immediately demoted, face unspecified charges,
and then ultimately be terminated. Though the
Petitioners-Plaintiffs had an undisputed property
interest in their jobs, the ultimatum to resign was
issued without the City providing any pre-deprivation process, including notification of charges, identification of witnesses and evidence, and a minimal
opportunity to be heard. Under the threat of the
loss of significant retirement benefits if they were
demoted and terminated, each Petitioner-Plaintiff
succumbed to the forces exerted by the City and
resigned. Shortly thereafter, an impartial hearing
officer ruled that the resignations were coerced and
were not voluntary, thereby constituting a constructive discharge.
Eight Circuit Courts have held or suggested
that coerced resignations/constructive discharges
of employees with property rights in continued
employment must be afforded at least minimal due
process. Below, the Second Circuit diverged from
these other Circuits and held that coerced resignations do not require pre-deprivation due process
because New York’s Article 78 procedures provide
adequate post-deprivation process.

ii
The question presented is:
1. Whether a municipal employer’s coerced resignation of an employee with a protected property interest in continued employment requires
pre-deprivation due process under Cleveland
Board of Education v. Loudermill, 470 U.S.
532 (1985).

iii
PARTIES TO THE PROCEEDINGS
Petitioners are Andrew J. Capul, David Colon,
Eric R. Rodriguez, and Peter A. DeBlasio.
Respondents are City of New York, William
Joseph Bratton, and Lawrence Byrne.

iv
TABLE OF CONTENTS
Page

QUESTION PRESENTED ............................

i

PARTIES TO THE PROCEEDINGS.............

iii

TABLE OF AUTHORITIES ..........................

vii

OPINIONS BELOW ......................................

1

JURISDICTION ............................................

1

CONSTITUTIONAL PROVISION
INVOLVED ..............................................

1

STATEMENT OF THE CASE.......................

1

A. The NYPD Hires then Promotes
Four Exemplary Police Officers ........

1

B. Job Protections for NYPD Captains
and Designated Higher Ranks ..........

2

C. To Give the Public Appearance
of Action Against Alleged
Corruption in the NYPD,
The City Made Scapegoats
of Petitioners .....................................

3

D. An Independent Hearing Officer
Determined Petitioners’
Resignations Were Coerced
and the City Deprived Them
of Due Process ...................................

5

v
Page

E. Proceedings to Date...........................

6

REASONS FOR GRANTING
THE PETITION .......................................

7

I.

The Second Circuit’s Decision
Cements Its Split from Eight
Other Circuits That Require
Pre-Deprivation Due Process
Before a Coerced Resignation ...........

10

A. Coerced Resignations are
Foreseeable by the Employer
So the Majority of Circuits
Correctly Require PreDeprivation Process ....................

12

B. The Second Circuit’s Rule
is Wrong Because Coerced
Resignations are Foreseeable
by the Employer..........................

19

CONCLUSION ..............................................

25

APPENDIX
Summary Order of the United States
Court of Appeals for the
Second Circuit, dated
January 12, 2021 ...............................

1a

vi
Page(s)

Opinion and Order of the Honorable
Katherine Polk Failla, dated
May 27, 2020, Appealed From...........

5a

Judgment of the United States
District Court, Southern District
of New York, filed May 28, 2020,
Appealed From ..................................

43a

Complaint, dated May 13, 2019 ...............

44a

vii
TABLE OF AUTHORITIES
Page(s)

Cases
Bell v. Burson,
402 U.S. 535 (1971) ..................................

13

Board of Regents v. Roth,
408 U.S. 564 (1972) ..................................

12

Bradley v. Village of Univ. Park,
929 F.3d 875 (7th Cir. 2019) ....................

8

Capul v. City of New York,
19 Civ. 4313, 2020 U.S. Dist. LEXIS
92727 (S.D.N.Y. May 27, 2020)................passim
Capul v. City of New York,
20-1905-cv, 832 Fed App’x 766
(2d Cir. Jan. 12, 2021) ...............................

1, 7

Cleveland Bd. of Educ. v. Loudermill,
470 U.S. 532 (1985) .............................10, 11, 12
Eggers v. Moore,
257 Fed. App’x 993 (6th Cir. 2007) ..........

9

Findeisen v. North East Ind. Sch. Dist.,
749 F.2d 234 (5th Cir. 1984)....................passim
Fowler v. Carrollton Public Lib.,
799 F.2d 976 (5th Cir. 1986) ....................

9

Giglio v. Dunn,
732 F.3d 1133 (2d Cir. 1984) ...................passim
Hargray v. Hallandale,
57 F.3d 1560 (11th Cir. 1995) ...............9, 15, 17

viii
Page(s)

Hudson v. Palmer,
486 U.S. 517 (1984) .......................19, 21, 22, 23
Jaeger v. Bd. of Educ. of Hyde Park
Cent. Sch. Dist.,
125 F.3d 844 (2d Cir. 1997) .....................

18

Judge v. Shikellamy Sch. Dist.,
905 F.3d 122 (3d Cir. 2018) ..................... 16, 23
Knappenberger v. City of Phoenix,
566 F.3d 936 (9th Cir. 2009) .................8, 16, 17
Lauck v. Cambell County,
627 F.3d 805 (10th Cir. 2010) ...............8, 14, 17
LeBeouf v. Manning,
575 Fed. App’x 374 (5th Cir. 2014) ..........

14

Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982) ..................................

10

Matthews v. Elridge,
424 U.S. 319 (1976) ..................................

19

Moffitt v. Town of Brookfield,
950 F.2d 880 (2d Cir. 1991).....................8, 9, 18
Parratt v. Taylor,
451 U.S. 527 (1981)..................................passim
Stenson v. Kerlikowske,
No. 99-7833, 2000 U.S. App. LEXIS 3478
(2d Cir. Mar. 3, 2000)...............................

8

Stone v. Univ. of Maryland Med. Sys. Corp.,
855 F.2d 167 (4th Cir. 1988) ....................

16

ix
Page(s)

Zinermon v. Burch,
494 U.S. 113 (1990)..................................passim
Statutes
28 U.S.C. § 1254(1) ........................................

1

28 U.S.C. § 1331 ............................................

6

28 U.S.C. § 1343 ............................................

6

U.S. CONST. AMEND. XIV, Section 1 ..............

1

Rules
C.P.L.R. Article 78 ........................................

20

Fed. R. Civ. P. 12(b)(6)..................................

6, 15

OPINIONS BELOW
The Second Circuit’s opinion (App. 1a-4a) is
available at 832 Fed. App’x 766 (2d Cir. 2021). The
District Court’s opinion (App. 5a-42a) is available
at 19 Civ. 4313, 2020 U.S. Dist. LEXIS 92727
(S.D.N.Y. May 27, 2020).
JURISDICTION
The Court of Appeals entered judgment on February 2, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
CONSTITUTIONAL
PROVISION INVOLVED
The Fourteenth Amendment to the United States
Constitution provides, in relevant part, that no
State shall “deprive any person of life, liberty, or
property, without due process of law.” U.S. CONST.
AMEND. XIV, Section 1.
STATEMENT OF THE CASE
A. The NYPD Hires then Promotes Four
Exemplary Police Officers
By 1992, the City, through the New York City
Police Department (the “NYPD”), hired Petitioners,
Andrew J. Capul, Peter A. DeBlasio, David Colon,
and Eric R. Rodriguez as police officers. (App. 46a48a ¶¶ 11, 16, 21, 26). Each Petitioner, after his
hire, performed his job in an exemplary manner,

2
and, in recognition of their work, the NYPD promoted each of the Petitioners multiple times. Ultimately, each of the Petitioners were promoted by
the NYPD through discretionary promotions to
some of the highest-ranking positions in the NYPD.
(App. 46a-48a ¶¶ 12-15, 17-20, 22-25, 27-31). Specifically, in 2013, 2014, and 2015, the NYPD promoted
Colon, Rodriguez, and Capul, respectively, to Deputy
Chiefs. (App. 47a-48a ¶¶ 13, 18, 23). In May 2011,
the NYPD promoted DeBlasio to Inspector. (App.
49a ¶ 29).
B. Job Protections for NYPD Captains and
Designated Higher Ranks
NYPD Captains and officers holding the higher
ranks that Petitioners held, such as Deputy Inspector, Inspectors and Deputy Chiefs (the “Higher
Ranks”), are represented by the Captains Endowment Association (“CEA”), a collective bargaining
unit. (App. 16 ¶¶ 32, 34). The NYPD cannot terminate Captains or the Higher Ranks without providing them with notification of charges and an
opportunity to be heard on those charges, including
by being heard at a departmental hearing. (App.
49a ¶¶ 37, 39-40, 43).
The Commissioner may appoint, detail, or promote Captains to the Higher Ranks, but such officers remain represented by the CEA. (App. 49a-50a
¶¶ 34-35). The Commissioner may demote a Higher
Rank officer “at will,” but promoted officers continue to enjoy job protection at the rank of Captain,
including the prohibition against the NYPD firing

3
such officers without due process. (App. 16-17
¶¶ 39-40, 43).
C. To Give the Public Appearance of Action
Against Alleged Corruption in the NYPD,
The City Made Scapegoats of Petitioners
In 2013, concerned about corruption in the NYPD
reaching ranks as high as the Chief of the Department of the NYPD, then Philip Banks, the FBI
opened an extensive investigation. (App. 51a ¶¶ 4445). Among other things, the investigation probed
suspicions that in exchange for favors, NYPD police
officers were accepting gifts and vacations from
businessmen Jona Rechnitz and Jeremy Reichberg,
who allegedly had ties to the Mayor and Chief
Banks. (App. 51a-52a ¶¶ 47-48). In December 2015,
the investigation extended to include the Deputy
Inspector of the Internal Affairs Bureau, Michael
Deddo. (App. 52a ¶ 49).
During the fact gathering stage of the investigation, the FBI interviewed up to fifty NYPD high
ranking officials, including the Petitioners, and
fifty other NYPD employees, both uniformed and
civilian. (App. 52a ¶¶ 51-52). The FBI agents interviewed Rodriguez and Colon and assured these
Deputy Chiefs that they were not targets of the
investigation. (App. 53a ¶¶ 55-56).
Nevertheless, on April 7, 2016, the president of
the CEA, Roy Richter, told Rodriguez and Colon
that Respondent Police Commissioner William J.
Bratton, intending to show the public that the

4
NYPD was taking serious steps to confront the
alleged corruption, planned to transfer the Petitioners-Plaintiffs. (App. 53a ¶ 58). Richter told the
Petitioners that the transfers were for appearances
only and were not based on any misconduct. (App.
53a ¶ 60). At the time of the transfers, Bratton
openly expressed to reporters that “action must be
taken” to guarantee that the NYPD meets the
expectations of the public. (App. 54a ¶ 65).
The next day, on April 8, 2016, the FBI and IAB
agents interviewed Capul and assured him that he
was not a target of the investigation either. (App.
54a ¶¶ 62-63). Yet, a few days later, Bratton transferred Capul to a less prestigious position, even
though the NYPD did not accuse or charge him
with any allegations of corruption or misconduct.
(App. 55a-56a ¶¶ 74, 76).
In May 2016, Bratton and Respondent Deputy
Commissioner Lawrence Byrne created two lists
for officers who were involved in the investigation;
a “fired” list and an “arrested” list. (App. 58a ¶¶ 9495). Without proof or suspicion of wrongdoing, they
put DeBlasio on the “fired” list. (App. 58a ¶¶ 94-95).
By the end of the same month, Bratton, via
Richter, told Capul, Colon, and Rodriguez that he
wanted them to submit their resignations and
make their retirements effective by May 31, 2016.
(App. 58a ¶ 96). Bratton, trying to ensure he would
receive Petitioners’ retirements without a hearing,
threatened Petitioners by communicating to them
that if they did not retire, the NYPD would charge
them and, regardless of the outcome of the hearing,

5
he would fire them. (App. 58a-59a ¶¶ 97-98, 104).
Such threat represented the City’s objective to
remove allegedly “tainted” employees from the
NYPD so that the NYPD and City could put the
corruption scandal behind them. (App. 59a ¶ 106).
Ultimately, Bratton presented each Petitioner
with an ultimatum—either submit the retirement
as demanded or be subjected to an immediate
demotion and then termination. (App. 61a-62a
¶¶ 116-120). No Respondent or any other agent of
the NYPD informed any Petitioner of the basis of
any potential charge Petitioners would have faced
had they not submitted their resignations. (App.
62a-63a, 66a ¶¶ 122, 126, 146). Nevertheless, fearing they would lose substantial employment benefits from termination but not with retirement, each
Petitioner submitted his retirement papers as
Bratton demanded. (App. 64a-66a ¶¶ 138-145, 147).
D. An Independent Hearing Officer Determined Petitioners’ Resignations Were
Coerced and the City Deprived Them of
Due Process
In August 2016, Petitioners commenced a grievance process, challenging the City’s failure to pay
them accrued leave time. (App. 66a ¶ 148). The
issue required resolving the question of whether
Petitioners’ retirements were voluntary or forced.
(App. 66a ¶ 148). In resolving the question of voluntariness, the independent hearing officer determined, inter alia, that (1) “the facts establish that
Byrne engaged in a course of action designed to

6
force [Petitioners] out,” (2) Byrne’s threats constituted a breach of Petitioners’ “statutory and due
process rights,” (3) Bratton ordered Petitioners to
submit their retirement papers “without sharing
any facts or allowing any of the [Petitioners] to
present a defense informally,” and (4) the City
failed to “adduce any evidence that it had reason to
believe at or about the time of the [forced resignation] that the Department had information that
any of the [Petitioners] had engaged in actionable
misconduct.” (App. 66a-67a ¶ 149-151).
Since Petitioners’ submission of their retirements, each Petitioner has requested reinstatement, but the City has ignored every such demand.
(App. 69a ¶¶167-170).
E. Proceedings to Date
On May 14, 2019, Petitioners filed a Complaint
in the Southern District of New York, based on federal question jurisdiction 28 U.S.C. §§ 1331, 1343.
Respondents moved for dismissal under FED. R.
CIV. P. 12(b)(6). Respondents argued that the Second Circuit’s decision, Giglio v. Dunn, 732 F.3d
1133 (2d Cir. 1984), controlled and compelled dismissal.
The District Court agreed and dismissed the
case. Capul v. City of New York, 19 Civ. 4313, 2020
U.S. Dist. LEXIS 92727 (S.D.N.Y. May 27, 2020).
The District Court held, among other things, that
Giglio stands for the proposition that a coerced resignation or constructive discharge cannot give rise
to a due process claim. Id. at 29-39. The court

7
acknowledged that other Circuits may allow such
claims to proceed, but that Giglio controlled in the
Second Circuit, so the District Court was constrained by that decision. Id. at *31 n.4.
After the dismissal, Petitioners appealed to the
Second Circuit Court of Appeals. Petitioners
argued that (a) Giglio is no longer good law because
of subsequent Supreme Court and Second Circuit
cases; and (b) even if Giglio remains viable, the
outcome here should be different because of divergent fact patterns. The Second Circuit affirmed,
noting in a brief summary order that it was doing
so, “[f]or substantially the same reasons set forth
by the district court.” Capul v. City of New York,
20-1905-cv, 832 Fed App’x 766 (2d Cir. Jan. 12, 2021).
The Second Circuit further stated that “post-termination process provided by New York State satisfies due process.” Id. Judgment was entered on
February 2, 2021.
This Petition followed.
REASONS FOR
GRANTING THE PETITION
In the Second Circuit, District Courts have interpreted Giglio as a bright-line rule standing for the
proposition that coerced resignations/constructive
discharges of public employees with property interests in their jobs do not require pre-deprivation due
process under the Fourteenth Amendment. Capul,
2020 U.S. Dist. LEXIS 92727 at *31-34. But for
dicta in a footnote in a published decision, the Sec-

8
ond Circuit has endorsed this view in summary
orders. Compare Moffitt v. Town of Brookfield, 950
F.2d 880, 883 n.2 (2d Cir. 1991) with Stenson v.
Kerlikowske, No. 99-7833, 2000 U.S. App. LEXIS
3478 (2d Cir. Mar. 3, 2000).
But the law of the Second Circuit is at odds with
each and every other Circuit which has considered
the same question. Indeed, eight other Circuits—
the Third, Fourth, Fifth, Sixth, Eighth, Ninth,
Tenth and Eleventh Circuits1—have either allowed
due process claims to proceed based on a coerced
resignation allegation or have opined that under
the right circumstances, such a claim could be
viable. E.g. Lauck v. Cambell County, 627 F.3d 805,
812-13 (10th Cir. 2010) (“An employer cannot circumvent the due-process requirements that would
attend a true firing by trying to compel a resignation in a manner that violates the employee’s property . . . rights”); Knappenberger v. City of Phoenix,
566 F.3d 936, 941 (9th Cir. 2009) (noting “The
Third, Fourth, Eighth, Tenth and Eleventh Cir1

Though not a coerced resignation case, the Seventh
Circuit has suggested that pre-deprivation process is
required when Monell liability exists because in such circumstances, the municipality itself is deemed to have acted and
was thus in a position to provide pre-deprivation process.
Bradley v. Village of Univ. Park, 929 F.3d 875, 880 (7th Cir.
2019). Here, the Complaint alleged that the City was liable
under Monell because (1) final policy makers acted and (2)
the City enacted a policy of making scapegoats to take the fall
for the corruption which led to the deprivation of the rights.
(App. 70a). Thus, the Seventh Circuit would likely agree that
this case required pre-deprivation due process.

9
cuits” allow Section 1983 claims to proceed on an
allegation of constructive discharge); Eggers v.
Moore, 257 Fed. App’x 993, 995 (6th Cir. 2007)
(“due process may be triggered by constructive discharge”); Hargray v. Hallandale, 57 F.3d 1560,
1568 (11th Cir. 1995); Fowler v. Carrollton Public
Lib., 799 F.2d 976, 981 (5th Cir. 1986) (when state
actor’s intent is to circumvent Loudermill protections and the actor presents the employee with an
“either/or termination proposition,” facts may
establish a procedural due process claim). Moreover, the panel below diverged from the Second Circuit’s own suggestion that if a plaintiff is “coerced
into surrendering a job in which he had a constitutionally protected property interest, a violation of
Section 1983 occurred.” Moffitt, 950 F.2d at 883
n.2.
The Fifth Circuit, which has held that coerced
resignations may require due process, has
explained why such a rule is a proper, and why the
Second Circuit’s view on the matter is wrong as a
matter of law and policy. The Fifth Circuit foresees
occasions where the public employer is motivated
to avoid providing constitutionally required predeprivation process and strangleholds the employee into a position where it demands that the
employee resign or face certain termination.
Fowler, at 981 (5th Cir. 1986) (when state actor’s
intent is to circumvent Loudermill protections and
the actor presents the employee with an “either/or
termination proposition,” facts may establish a procedural due process claim). The Second Circuit’s

10
Giglio rule opens this loophole for public employers
in its jurisdiction.
Further, none of the factors exist in a coerced
resignation case that would make it impracticable
for the public employer to provide the most minimal constitutionally required pre-deprivation due
process before coercing a resignation. Findeisen v.
North East Ind. Sch. Dist., 749 F.2d 234, 239 (5th
Cir. 1984). As held in Findeisen, “one threatened
with the deprivation, under color of state law, of a
federally protected property interest must be given
“an opportunity . . . at a meaningful time and in a
meaningful . . . manner for [a] hearing appropriate to the nature of the case.” Id. (quoting Logan v.
Zimmerman Brush Co., 455 U.S. 422, 437 (1982)).
Below, Petitioners elaborate on these points
establishing the reasons the Petition should be
granted.
I.

The Second Circuit’s Decision Cements Its
Split from Eight Other Circuits That
Require Pre-Deprivation Due Process
Before a Coerced Resignation

The law is well-settled that civil service employees who are entitled to retain their jobs while performing good service and behaving well, and who
cannot be terminated except for cause, enjoy a
property interest in their employment. Cleveland
Bd. of Educ. v. Loudermill, 470 U.S. 532, 538-39
(1985). In such circumstances, before terminating
the employee, the public employer must provide

11
constitutionally adequate pre-deprivation process.
Id. at 546. This Court has defined that process to
mean the employee is entitled to “oral or written
notice of the charges against him, an explanation of
the employer’s evidence, and an opportunity to
present his side of the story.” Id. (citation omitted).
Even when states provide for full “elaborate” postdeprivation process, Loudermill requires these
minimal pre-deprivation procedural safeguards
when the state can “feasibly” provide it. Id. at 54547; Zinermon v. Burch, 494 U.S. 113, 132 (1990)
(“regardless of the adequacy of a postdeprivation
tort remedy” states must provide pre-deprivation
process unless it is unduly burdensome or the state
cannot anticipate the deprivation).
The issue before the Court is whether, in circumstances where a public employee has a protected
property interest in continued employment and the
employer coerces the employee’s resignation constituting a constructive discharge, must the public
employer first provide the minimal Loudermill predeprivation procedures, or is a state’s post-deprivation procedures sufficient. As discussed below,
eight Circuits require pre-deprivation process (or
suggest it might be required in some circumstances), while the Second Circuit is the sole Circuit which holds, as a bright-line rule, that
pre-deprivation process is not required.

12
A. Coerced Resignations are Foreseeable by the Employer So the Majority
of Circuits Correctly Require PreDeprivation Process
Even before Loudermill, the Fifth Circuit held
that when a public employer coerces an employee
to resign, the employer must first provide predeprivation process. Findeisen, 749 F.2d at 238-39.
In Findeisen, a tenured public-school teacher
alleged he submitted a resignation letter under
threat of discharge. Id. at 236. The teacher alleged
the resignation constituted a constructive discharge, so he was entitled to pre-deprivation
process before being discharged. Id.
The Fifth Circuit easily concluded that the
teacher held a property interest in his employment.
Id. at 237. The Fifth Circuit also readily determined that individuals with a protected property
interest are entitled to due process “at a meaningful time and in a meaningful manner” and that,
generally, the requisite due process must be provided before the deprivation. Id. (citing Board of
Regents v. Roth, 408 U.S. 564, 570 n.7 (1972)). The
problem confronted by the Findeisen court was
whether this Court’s decision in Parratt v. Taylor,
451 U.S. 527 (1981), changed the analysis.
In Parratt, the question presented was whether
pre-deprivation process is required when a state
official’s negligent act caused a deprivation of a
property right. Parratt, 451 U.S. at 543. In cases of
negligence, a state cannot possibly predict the dep-

13
rivation of property, thus pre-deprivation process
cannot practicably be provided. Id.
The Fifth Circuit in Findeisen extrapolated from
Parratt four factors by which courts can consider
whether pre-deprivation process is required: (1)
pre-deprivation process is vital when the state has
established procedures to authorize the deprivation at issue; (2) the necessity of pre-deprivation
process is greatest when the protected interest is
the party’s livelihood; (3) the necessity of pre-deprivation process is lessened with a need for the state
to act quickly; and (4) the requirement of pre-deprivation process may be mitigated when circumstances make providing pre-deprivation process
impractical and post-deprivation remedies are
available. Findeisen, 749 F.2d. at 238 (citing Parratt, 451 U.S. at 540; Bell v. Burson, 402 U.S. 535,
538-39 (1971)).
Applying the factors to the coerced resignation in
Findeisen, the Fifth Circuit determined that (1)
state law established procedures for dismissal of
tenured teachers; (2) the action affected the
teacher’s livelihood (in contrast to the “hobby
goods” at issue in Parratt); (3) no emergency existed requiring “hasty” action; and (4) school boards
can easily hold pre-deprivation hearings to consider terminating an employee. Findeisen, 749 F.2d at
239. The Fifth Circuit summed up with the key
holding: permanent public employees threatened
with a deprivation must be provided “timely notice
and an opportunity to answer charges . . . .” Id. at
239. This analysis was reaffirmed by the Fifth Cir-

14
cuit in 2015 in LeBeouf v. Manning, 575 Fed. App’x
374, 377 (5th Cir. 2014) (noting due process was
required for coerced resignation when the employer’s intent was to avoid a hearing).
Other Circuits have taken a narrower view but
would nonetheless allow coerced resignation predeprivation due process claims to proceed given the
right circumstances. The Tenth Circuit acknowledges that constructive discharges are “peculiar”
for due process cases. Lauck, 627 F.3d at 812. Like
the Second Circuit, the Tenth Circuit reasonably
sees that an employer “may not even know that its
actions have compelled the employee to quit” and
cannot, therefore, “hardly be required to provide
notice or a hearing before the resignation.” Id.
In contrast to the Second Circuit, however, and
much like the Fifth Circuit, the Tenth Circuit foresees circumstances where an employer “intentionally or knowingly” creates an environment in which
it could reasonably expect the employee to quit. Id.
Thus, in the Tenth Circuit, “[a]n employer cannot
circumvent the due-process requirements that
would attend a true firing by trying to compel a
resignation in a manner that violates the employee’s property (that is, contract) rights.” Id.
Ultimately, in Lauck, the court determined that
the plaintiff ’s due process rights were not violated.
Id. at 813. Critically, the court found that (a) the
plaintiff ’s work conditions were not intolerable; (b)
his employer did not know the working conditions

15
would cause the plaintiff ’s resignation; and (c) he
had minimal pretermination hearings. Id.
In contrast, here, (a) a neutral arbitrator has
already determined that Respondents caused a
coerced resignation; (b) Respondents knew their
actions would cause the termination because it
demanded that specific action; and (c) Respondents
withheld any and all information from Petitioners
regarding the reason for issuing the resignation
ultimatum. (App. 66a-67a ¶¶ 149-151). Accordingly,
were this case in the Tenth Circuit, the case likely
would not have been dismissed on Rule 12(b)(6)
motion, but because it was brought in the Second
Circuit where Giglio controls, the case was immediately dismissed. By hearing this appeal, this Court
can correct this disparity.
The Eleventh Circuit similarly envisions circumstances when a resignation requires due process.
Hargray, 57 F.3d at 1569. In Hargray, the plaintiff
alleged that his employer, a city, deprived him of
due process by forcing him to resign. Id. at 1567.
The District Court allowed the case to proceed
through a bench trial—which the plaintiff won—
but the city then appealed. Id.
On appeal, the Eleventh Circuit noted two circumstances when the law might require pre-deprivation due process for a constructive discharge: (1)
when the resignation is coerced, particularly when
the employer lacks good cause to believe grounds
exist for termination; or (2) when the resignation is
obtained by the employer’s misrepresentation of a

16
material fact. Id. at 1569-70.2 On the fully developed factual record before it, the Eleventh Circuit
found that the plaintiff could not satisfy either
basis for a due process claim because it determined
the resignations were voluntary, so no due process
was owed. Id.3
Here, again, a neutral arbitrator has determined
that the Petitioners’ resignations were coerced.
(App. 67a ¶ 151). The question of whether the resignations were voluntary or not was not addressed by
the District Court or the Second Circuit, because
they determined that, even if coerced and involuntary, due process is not violated in such circumstances. E.g. Capul, 2020 U.S. Dist. LEXIS 92727
at *39-40. The Second Circuit’s split from other
Circuits can be corrected by this appeal.
In the Ninth Circuit, the “duress or coercion” theory is also available to employees in the jurisdiction. Knappenberger, 566 F.3d at 941 (noting the
“Third, Fourth, Eighth, Tenth and Eleventh Cir2

The Third Circuit has endorsed this formulation. See
e.g. Judge v. Shikellamy Sch. Dist., 905 F.3d 122, 125 (3d Cir.
2018).
3

Using a similar analysis, the Fourth Circuit also determined that some circumstances may exist where a resignation is involuntarily, thus requiring due process, but in the
case before it (decided on summary judgment), the record
showed that the plaintiff was “fully informed of the nature of
the charges against him” and “what his rights were.” Stone v.
Univ. of Maryland Med. Sys. Corp., 855 F.2d 167, 177-78 (4th
Cir. 1988). Further, facts developed in the record contradicted the plaintiff ’s arguments about why the resignation was
involuntary. Id. at 178.

17
cuits” all recognize such a theory). The Court of
Appeals cautioned the District Court for imposing
too limiting a rule, which, though it would have
allowed a constructive discharge due process claim,
required a showing of “intolerable and discriminatory working conditions.” Id. The Ninth Circuit
noted that “a retirement or resignation may be
involuntary and constitute a deprivation of property for purposes of a due process claim in the
absence of intolerable working conditions.” Id.
Like the Hargray and Lauck courts, the Knappenberger court determined that the plaintiff was
not entitled to due process because he could not
show the retirement was involuntary since the
“complaint allege[d] merely that he anticipated he
would be terminated.” Id. The Ninth Circuit found
determinative factors to be that the employer did
not request the resignation or tell the employee
that he would be terminated, the employer did not
require the employee to make “an on-the-spot decision,” noting further the plaintiff could choose the
date of his retirement, and the employee did “not
even allege that a termination would have been
inevitable.” Id. at 942.
Here, Petitioners’ employers threatened them
that if they did not retire by a date certain, they
would face certain termination. (E.g. App. at 59a
¶ 100). Notwithstanding, unlike the Third, Ninth,
Tenth, and Eleventh Circuits, the Second Circuit
never even considered whether the terminations
were involuntarily, because, in the Circuit’s view,
and in contradiction to the view of these other Cir-

18
cuits, the determination of voluntariness did not
matter for purposes of due process. Capul, 2020
U.S. Dist. LEXIS 92727 at *39-40.
In sum, the Third, Fourth, Fifth, Seventh,
Eighth, Ninth, Tenth, and Eleventh Circuits have
all held that in some circumstances, the Constitution requires that a public employee be given predeprivation due process before being constructively
discharged. The Second Circuit, however, has
completely foreclosed the possibility that pre-deprivation due process must be provided in any circumstance involving a constructive discharge.4 Here, a
neutral factfinder already determined that Petitioners were coerced into resigning and that the
resignations were not voluntary, so this threshold
issue was not a question in the lower courts. The
only issue was whether these circumstances
require pre-deprivation process. Eight Circuits
would answer that question affirmatively, but the
Second Circuit has rejected this overwhelmingly
supported approach and dismissed Petitioners’
claims. Granting this Petition would clearly establish the law across these United States.
4
Critically, one Second Circuit panel has opined, in a
non-precedential manner that, “[i]f [plaintiff] was coerced
into surrendering a job in which he had a constitutionally
protected property interest, a violation of Section 1983
occurred.” Moffit, 950 F.2d at 883 n.2. None of the other
coerced resignation cases considered by the Second Circuit
have discussed the significance of this footnote and District
Courts continue to dismiss it as dicta, relying on Giglio as the
controlling law. Stenson, 205 F.3d 1324; Jaeger v. Bd. of Educ.
of Hyde Park Cent. Sch. Dist., 125 F.3d 844 (2d Cir. 1997).

19
B. The Second Circuit’s Rule is Wrong
Because Coerced Resignations are
Foreseeable by the Employer
In the Second Circuit, courts rely on the precedent set by Giglio when analyzing coerced resignation due process cases. E.g. Capul, 2020 U.S. Dist.
LEXIS 92727 at *26-28 (discussing how the Second
Circuit “continues to cite Giglio with approval” and
“District courts also continue to rely on Giglio in
cases involving coerced resignations”). Giglio relied
on this Court’s holding in Parratt. But, Giglio is
undermined by subsequent cases, including Hudson
v. Palmer, 486 U.S. 517 (1984) and Zinermon v.
Burch, 494 U.S. 113 (1990).
In Parratt, the question presented was whether
pre-deprivation process is required when a state
official’s negligent act caused a deprivation of a
property right. Parratt, 451 U.S. at 543. In cases of
negligence, a state cannot possibly predict the deprivation of property, thus pre-deprivation process
cannot practicably be provided. Parratt, 451 U.S. at
543. Thus, Parratt lays the groundwork for the
importance of foreseeability in analyzing the requisite process owed in a particular situation. See
Matthews v. Elridge, 424 U.S. 319, 334 (1976) (noting that the process due varies according to particular situations and identifying factors to be used in
determining the process due).
After Parratt, the Second Circuit decided Giglio.
The plaintiff in Giglio, a tenured high school principal, resigned from his position because of school

20
officials’ alleged coercion. Giglio, 732 F.2d at 1134.
He alleged that officials threatened him that the
school district would abolish his position at a meeting to be held later that day unless he agreed
before the meeting, to either return to work by a
date certain or resign. Id. The plaintiff resigned,
then argued his resignation was involuntary and
coerced so he was denied due process because a
hearing did not precede the coercion. Id. The crucial inquiry was whether the deprivation of the
plaintiff ’s fundamental property right in his
tenured position occurred without due process of
law or, more specifically, whether he was entitled
to a pre-deprivation hearing. Id. at 1136.
The Second Circuit affirmed the District Court’s
dismissal of the plaintiff ’s complaint for failure to
state a claim. Giglio, 732 F.2d at 1134. Both the
trial and appellate courts, relying heavily on Parratt, held, inter alia, that a pre-coercion hearing
would have been virtually impossible and thus not
constitutionally required. Id. The Second Circuit
noted that due process requires only that a hearing
be held “at a meaningful time and in a meaningful
manner” and that when a pre-deprivation hearing
is impractical and a post-deprivation meaningful, a
post-deprivation hearing is all that is required. Id.
at 1135. The Second Circuit determined post-deprivation process was satisfied because a New York
C.P.L.R. Article 78 proceeding was sufficient postdeprivation process in the case of the coerced resignation presented in Giglio. Id. at 1135.

21
After Parratt and Giglio, the Supreme Court
decided Hudson, 486 U.S. at 517, a case concerning
the intentional deprivation of a property right.
Hudson furthered the concept of a “random, unauthorized act.” Id. at 533. When a deprivation occurs
because of a “random, unauthorized act,” the state
cannot predict the deprivation, so pre-deprivation
process is impracticable. Id. This is the case even
with intentional deprivations, provided the act is
random and unauthorized. Id. This Court emphasized that, “[t]he controlling inquiry is solely
whether the state is in a position to provide for predeprivation process.” Id.
The importance of foreseeability in determining
whether the state is in a position to provide predeprivation process was highlighted in Zinermon.
494 U.S. at 113. In Zinermon, the plaintiff was
found wandering along a highway disoriented and
apparently injured. Id. at 118. Though his symptoms included hallucinations and confusion, upon
arrival at a mental health facility, the plaintiff
signed papers giving consent for admission and
treatment. Id. Later, he also signed more papers
consenting to admission and treatment at a longterm care facility. Id. The plaintiff was held in
treatment facilities for five months without a hearing. Id.
Upon his release, the plaintiff alleged that he
was involuntarily committed and that the defendants should have known he was not capable of giving consent. Id. at 121. Thus, he claimed he was
denied due process. Id.

22
To resolve the question of whether the state owed
the plaintiff due process, the Court turned to the
question of whether the “kind” of deprivation was
predictable. Id. at 128-29. The answer derives from
the lessons of Parratt and Hudson, the “proper
inquiry” being “whether the state is in a position to
provide for predeprivation process.” Id. at 130
(quoting Hudson, 468 U.S. at 534).
Ultimately the Parratt/Hudson rule did not apply
to the plaintiff in Zinermon because (1) it was not
unpredictable that a seemingly competent person
was actually incompetent, and the state knew that
the “erroneous deprivation” would occur “at a predictable point in the admission process”; (2) the
state could have enacted procedures to guard
against the deprivation at issue; and (3) the state
granted the defendants the power to effect the
precise deprivation at issue. Id. at 136-37. The
Zinermon Court summarized by noting:
Such a deprivation is foreseeable, due to the
nature of mental illness, and will occur, if at
all, at a predictable point in the admission
process. Unlike Parratt and Hudson, this
case does not represent the special instance
of the Mathews due process analysis where
postdeprivation process is all that is due
because no predeprivation safeguards would
be of use in preventing the kind of deprivation alleged.
Id. at 139.

23
In sum, Parratt, Hudson, and their progeny,
including Zinermon, emphasize the importance of
the employer’s ability to predict or foresee the deprivation. In cases of negligence or where low-level
employees cause the deprivation, the state cannot
possibly provide pre-deprivation process because it
cannot know a deprivation is about to occur. But,
where high level decision makers issue ultimatums
to employees causing a constructive discharge, the
state knows (and desires) that the employee will
resign. If the employee would be entitled to due
process were the employer to affirmatively discharge the employee, it stands to reason that the
same employee should be entitled to due process
before the employer knowingly forces the employee
into an involuntary resignation.5
Applied here, the Hudson/Parratt analysis compels a determination that coerced resignations can
require pre-deprivation due process and it was
required here. Respondents were high ranking
decision makers who demanded that each Petitioner resign by a date certain or be immediately
demoted then terminated based on unspecified
charges. Thus, Respondents were wholly in a position to foresee that by issuing such an ultimatum,
5

Whether a resignation was voluntary or involuntary
may be another issue to be resolved in such cases. But, here,
Respondents did not dispute the voluntariness of the resignations and an arbitrator already determined that the resignations were not voluntary. Moreover, Circuits like the Fifth,
Ninth, Tenth and Eleventh, have developed workable tests to
determine whether a resignation is voluntary or not. E.g.
Judge, 905 F.3d at 125.

24
Petitioners would, in fact, resign. Moreover, at the
time of the ultimatum, Respondents could have
readily provided the Petitioners with information
concerning the nature of the charges they would
face, if termination were truly warranted.
Here, resignation is the precise outcome Respondents wanted because, as alleged, they did not
want to face uncomfortable facts coming out during
a departmental trial. (App. 69a ¶ 165). Further,
Respondents could have implemented procedural
safeguards, such as requiring, before issuing such
resignation ultimatums, that they disclose the
nature of any alleged wrongdoing to Petitioners
and allow them an opportunity to, at least, informally respond, i.e., that they provide the most minimal Loudermill protections.
In sum, here, Respondents wanted Petitioners’
resignations and, in fact, obtained those resignations. Further, they did so without evidence of Petitioners’ wrongdoing (App. 67a ¶ 151), and they did
so to avoid providing the pre-deprivation process,
which the Constitution requires that they provide.
All the factors that almost every Circuit considers
favors a finding that pre-deprivation process is
required in a coerced resignation case, which are
present here. Yet, the Second Circuit did not consider one of these factors, instead relying on a
dated and abrogated decision from 1984.
This case presents this Court with the opportunity to close the loophole opened by the Second Circuit which allows public employers to skirt their

25
Constitutional duties to provide due process by
extracting seemingly voluntary resignations without due process.
CONCLUSION
For all these reasons, Petitioners respectfully
request that the Court grant their Petition for Writ
of Certiorari.
Respectfully submitted.
MATTHEW WEINICK
Counsel of Record
FAMIGHETTI & WEINICK, PLLC
25 Melville Park Road, Suite 235
Melville, New York 11747
631-352-0050
mbw@fwlawpllc.com
PATRICK MCCORMICK
CAMPOLO, MIDDLETON
& MCCORMICK, LLP
4175 Veterans Memorial Highway
Suite 400
Ronkonkoma, New York 11797
631-738-9100
pmcormick@cmmllp.com
Counsel for Petitioners
April __, 2021

APPENDIX

1a
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS

BY SUMMARY ORDER DO NOT HAVE PRECE -

DENTIAL EFFECT .

CITATION TO A SUMMARY ORDER
FILED ON OR AFTER J ANUARY 1, 2007, IS PERMITTED
AND IS GOVERNED BY F EDERAL R ULE OF A PPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE
32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT , A PARTY MUST CITE
EITHER THE F EDERAL A PPENDIX OR AN ELECTRONIC
DATABASE ( WITH THE NOTATION “ SUMMARY ORDER ”).
A PARTY CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT REPRESENTED BY
COUNSEL .

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 12th day of
January, two thousand twenty-one.
PRESENT: GUIDO CALABRESI,
REENA RAGGI,
DENNY CHIN,
Circuit Judges.

2a
20-1905-cv
ANDREW J. CAPUL, DAVID COLON,
ERIC R. RODRIGUEZ, PETER A. DEBLASIO,
Plaintiffs-Appellants,
—v—
CITY OF NEW YORK, WILLIAM JOSEPH BRATTON,
LAWRENCE BYRNE, in their individual capacity
and official capacity,
Defendants-Appellees.
FOR PLAINTIFFS-APPELLANTS:
M ATTHEW W EINICK , Famighetti & Weinick,
PLLC, Melville, New York; and Yale Pollack,
Law Offices of Yale Pollack, P.C., Syosset,
New York.
FOR DEFENDANTS-APPELLEES:
D ANIEL M ATZA -B ROWN (Richard Dearing, and
Claude S. Platton, on the brief) for James E.
Johnson, Corporation Counsel of the City of
New York, New York, New York.
Appeal from the United States District Court for
the Southern District of New York (Failla, J.).
UPON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the judgment of the district court is AFFIRMED.

3a
Plaintiffs-appellants (“plaintiffs”), four former
officers with the New York City Police Department
(the “NYPD”), appeal the district court’s judgment,
entered May 28, 2020, dismissing their claims
against defendants-appellees the City of New York
and two former NYPD officials (“defendants”).
Plaintiffs alleged that defendants violated their
right to due process by coercing them into retiring
from the NYPD. By opinion and order entered May
27, 2020, the district court granted defendants’
motion to dismiss the complaint for failure to state
a claim under Federal Rule of Civil Procedure
12(b)(6), citing to this Court’s holding in Giglio v.
Dunn, 732 F.2d 1133 (2d Cir. 1984), and its progeny. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal.
For substantially the reasons set forth by the district court in its thorough opinion, we agree that
plaintiffs have failed to state a claim for relief. As
we have squarely held, the post-termination process
provided by New York State satisfies the due process
requirements of the Fourteenth Amendment in
cases such as this, where state and local governmental employees who were purportedly coerced
into resigning contend that their due process rights
were violated. See Hellenic Am. Neighborhood
Action Comm. v. City of New York, 101 F.3d 877,
881 (2d Cir. 1996) (collecting cases and noting that
“[w]e have held on numerous occasions that an
Article 78 proceeding is a perfectly adequate postdeprivation remedy in the present situation”).

4a
We have considered plaintiffs’ remaining arguments and conclude they are without merit.
Accordingly, we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ CATHERINE O’HAGAN WOLFE

5a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 4313 (KPF)
ERIC

ANDREW J. CAPUL, DAVID COLON,
R. RODRIGUEZ, and PETER A. DEBLASIO,
Plaintiffs,
—v.–

CITY OF NEW YORK, WILLIAM J. BRATTON, in
his individual and official capacities, and
LAWRENCE BYRNE, in his individual
and official capacities,
Defendants.
OPINION AND ORDER
KATHERINE POLK FAILLA, District Judge:
Plaintiffs, four former New York City Police
Department (“NYPD” or the “Department”) officers
holding the ranks of Deputy Chief or Inspector,
bring this action pursuant to 42 U.S.C. § 1983
against the City of New York, former New York
City Police Commissioner William J. Bratton, and
former NYPD Deputy Commissioner for Legal Matters Lawrence Byrne. Plaintiffs assert a single
claim—that Defendants deprived them of a property
interest in their employment, in violation of their
Fourteenth Amendment right to due process, by
coercing their resignations from the Department

6a
and vitiating the pre-deprivation process that
would otherwise be available. Defendants now
move to dismiss the Complaint, arguing that: (i)
Plaintiffs have not adequately pleaded that the
alleged constitutional deprivations were part of a
municipal policy or custom; (ii) Plaintiffs’ due
process claim is not cognizable because of the postdeprivation process available to them; and (iii)
Defendants Bratton and Byrne are entitled to qualified immunity. For the reasons explained below,
the Court dismisses Plaintiffs’ Complaint.
BACKGROUND1
A. Factual Background
1.

The Plaintiffs

The Court accepts, as it must, the well-pleaded
allegations of the Complaint. Plaintiff Andrew J.
Capul was hired by the NYPD in 1984. (Compl.
¶ 11). For decades, Capul performed his duties in
an exemplary manner as evidenced by, among
other things, multiple promotions to the positions
1

The facts in this Opinion are drawn primarily from
Plaintiffs’ Complaint (“Complaint” or “Compl.” (Dkt. #8)),
which is the operative pleading in this case, as well as the
Declaration of Yale Pollock (“Pollock Decl.” (Dkt. #41)) and its
attached exhibit (“Arbitration Award” (Dkt. #41-1)). For ease
of reference, the Court refers to Defendants’ opening brief as
“Def. Br.” (Dkt. #39); Plaintiffs’ opposition brief as “Pl. Opp.”
(Dkt. #40); and Defendants’ reply brief as “Def. Reply” (Dkt.
#44). Additionally, the Court refers to the Individual Defendants by using the rank that each held during the relevant
time period.

7a
of Sergeant, Lieutenant, Captain, Deputy Inspector, and Inspector; receipt of performance evaluations consistently rating him above or well above
standards; and several awards, honors, and recognitions. (Id. at ¶ 12). In June 2015, the NYPD again
promoted Capul via a discretionary promotion to
the rank of Deputy Chief. (Id. at ¶ 13). During the
relevant time period, Capul held the position of
Deputy Chief, assigned to Patrol Borough Manhattan North, which Plaintiffs claim is one of the most
highly coveted and respected assignments in the
NYPD. (Id. at ¶ 14).
Plaintiff Eric R. Rodriguez was hired by the
NYPD in June 1992. (Compl. ¶ 16). During his
tenure with the NYPD, Rodriguez performed his
duties in an exemplary manner as evidenced by,
among other things, multiple promotions to the
positions of Sergeant, Lieutenant, Captain, Deputy
Inspector, and Inspector; receipt of performance
evaluations consistently rating him above or well
above standards; and several awards, honors, and
recognitions. (Id. at ¶ 17). In November 2014, the
NYPD again promoted Rodriguez via a discretionary promotion, to the rank of Deputy Chief. (Id.
at ¶ 18). During the relevant time period, Rodriguez
held the position of Deputy Chief, assigned to
Patrol Borough Brooklyn South, which Plaintiffs
allege is another of the most coveted assignments
in the NYPD. (Id. at ¶ 19).
Plaintiff David Colon was hired by the NYPD in
July 1986. (Compl. ¶ 21). For decades, Colon performed his duties in an exemplary manner as
evidenced by, among other things, multiple promo-

8a
tions to the positions of Sergeant, Lieutenant, Captain, Deputy Inspector, and Inspector; receipt of
performance evaluations consistently rating him
above or well above standards; and several awards,
honors, and recognitions. (Id. at ¶ 22). In July 2013,
the NYPD again promoted Colon via a discretionary promotion, to the rank of Deputy Chief. (Id.
at ¶ 23). During the relevant time period, Colon
held the position of Deputy Chief, assigned to the
NYPD’s Housing Bureau. (Id. at ¶ 24).
Plaintiff Peter A. DeBlasio was hired by the
NYPD as a police officer on January 4, 1984.
(Compl. ¶ 26). For decades, DeBlasio performed his
duties in an exemplary manner as evidenced by,
among other things, multiple promotions to the
positions of Sergeant, Lieutenant, and Captain;
receipt of performance evaluations consistently
rating him above or well above standards; and several awards, honors, and recognitions. (Id. at ¶ 27).
In May 2007, the NYPD promoted DeBlasio to the
rank of Deputy Inspector. (Id. at ¶ 28). DeBlasio
continued to excel in this appointed position, and
in May 2011, the Commissioner promoted and designated DeBlasio to the rank of Inspector. (Id. at
¶ 29). During the relevant time period, DeBlasio
held the position of Inspector, assigned to Patrol
Borough Brooklyn South as operations commander.
(Id. at ¶ 30).

9a
2.

Job Protections for Captains and Designated Higher Ranks

NYPD Officers holding the rank of Captain or
higher are represented by a collective bargaining
unit, the Captains Endowment Association (the
“CEA”). (Compl. ¶¶ 32, 34). Captains cannot be terminated absent notification of charges and an
opportunity to be heard on those charges, including
being heard at a Department hearing. (Id. at ¶ 37).
The Commissioner may detail, appoint, or promote
Captains to higher ranks, such as Deputy Inspector, Inspector, and Deputy Chief (collectively, the
“Higher Ranks”), where these officers would continue to be represented by the CEA. (Id. at ¶¶ 3435). Captains designated or promoted to the Higher
Ranks serve in such positions at the pleasure of
the Commissioner. (Id. at ¶ 38). But while the Commissioner may demote an officer promoted to the
Higher Ranks “at will,” he cannot terminate outright the officer’s employment with the NYPD. (Id.
at ¶ 39).
If the Commissioner desires to terminate the
employment of a person holding a Higher Rank, the
NYPD must bring charges against that person in
the same manner as it is required to do for Captains. (Compl. ¶¶ 39-40). That is, the NYPD must
follow the directives of New York Civil Service Law
§ 75, NYPD Patrol Procedures 206-06, 206-07, and
206-13, and the Rules of the City of New York, Title
38, § 15-01. (Id. at ¶¶ 40-41). Those provisions entitle officers to, among other things: (i) service of
charges and specifications identifying the “date,

10a
time and place” of the alleged misconduct, as well
as the “contract provision, law, policy, regulation or
rule that was allegedly violated” by the officer
in question (see N.Y.C. Admin. Code Title 38,
§ 15-03(a)); (ii) an opportunity for the accused officer to reply to the charges within eight days of
service (if served personally), or thirteen days of
service (if served by mail) (see id. at § 15-03(c)); (iii)
discovery concerning the disciplinary charges,
including “[r]equests for production of relevant documents, identification of trial witnesses and
inspection of real evidence to be introduced at the
Hearing” (see id. at § 15-03(f)); (iv) a disciplinary
hearing where, with the assistance of union or private counsel, an accused officer can introduce evidence, examine and cross-examine witnesses, and
make opening statements (see id. at § 15-04); and
(v) the production to the accused officer of a draft
of the report and recommendation of the Deputy
Commissioner of Trials, along with an opportunity
to submit written comments thereto (see id. at
§ 15-06).
3.

The NYPD Corruption Probe

In 2013, the Federal Bureau of Investigation (the
“FBI”) opened an investigation into corruption in
the NYPD that ultimately extended to the Chief of
the Department, Philip Banks, and the President
of the Correction Officers Benevolent Association,
Norman Seabrook. (Compl. ¶¶ 44-46). The FBI was
investigating allegations that police officers accepted
gifts and vacations from two wealthy New York City

11a
businessmen, Jeremy Reichberg and Jona Rechnitz,
in exchange for favors. (Id. at ¶ 47). In December
2015, when the investigation hit an impasse with
regard to Banks and Seabrook, the FBI began to
investigate others within the NYPD, the most
notable being Deputy Inspector Michael Deddo,
then working in the NYPD Internal Affairs Bureau
(“IAB”). (Id. at ¶ 49). As part of the investigation,
the FBI interviewed, or attempted to interview, at
least 50 high-ranking NYPD officials, including
Plaintiffs, and 50 other NYPD employees, uniformed
and civilian. (Id. at ¶¶ 51-53). When Rodriguez and
Colon were interviewed on February 25, 2016, the
FBI agents interviewing them assured them that
they were not targets of the investigation. (Id. at
¶¶ 55-56).
On April 7, 2016, Rodriguez and Colon received
calls from the President of the CEA, Roy Richter,
telling them that Commissioner Bratton was going
to transfer them because the Commissioner had to
take some action in response to articles that were
being published about the corruption. (Compl. ¶ 58).
Richter told Rodriguez that Commissioner Bratton
selected him because Reichberg lived in the Brooklyn
South area where Rodriguez worked. (Id. at ¶ 59).
Richter also told Rodriguez and Colon that the
transfers were only temporary, suggesting that
this was being done for appearances only, and not
because of any wrongdoing. (Id. at ¶ 60).
After consultation with his union and private
attorneys, Capul arranged to meet with the FBI
and IAB on April 8, 2016. (Compl. ¶ 61). At the
meeting, investigators assured Capul that he was

12a
not a subject or target of any investigation, but
rather, that the investigators were interested in
learning information Capul was believed to possess. (Id. at ¶ 62). After the April 8, 2016 meeting,
Capul was again assured that he was not the subject or target of any investigation by the United
States Attorney’s Office. (Id. at ¶ 63).
Because the allegations of wrongdoing inculpated
high-ranking NYPD officials, if not the Mayor himself—whom, it is alleged, the NYPD was trying to
protect—the NYPD believed it needed to take
immediate action, at least for public relations purposes. (Compl. ¶ 64). When the investigation came
to light in April 2016, Commissioner Bratton told
the press on April 7, 2016, that “[t]he public has
expectations of its public officials, of its police
department and certainly the leadership of the
department. If those expectations are not met,
actions must be taken.” (Id. at ¶ 65). Meanwhile,
Deputy Commissioner Byrne suggested to the press
that the corruption was not systemic, but rather
was confined to a small group of “senior” people
who had “bad judgment.” (Id. at ¶ 66). In so doing,
Commissioner Bratton and Deputy Commissioner
Byrne could suggest to the public that (i) the City,
the NYPD, and NYPD leaders were taking action
against the bad actors, and (ii) they could have
faith in the NYPD because the alleged corruption
was confined to a few high-level officials. (Id. at
¶ 67).
Plaintiffs allege that rather than going after the
corrupt NYPD officials, Commissioner Bratton
instead implicated “expendable” deputy chiefs and

13a
inspectors—career police officials with impeccable
records—while protecting politically tied officers.
(Compl. ¶ 70). In essence, Plaintiffs claim that they
were the scapegoats for others’ corruption. For
example, on the day that Commissioner Bratton
spoke out publicly regarding the corruption investigation, he transferred Colon and Rodriguez to desk
duty, despite the fact that they had not been
accused of any misconduct, no charges had been
filed against them, and they were not subjects of
the FBI investigation. (Id. at ¶¶ 71-72). Commissioner Bratton also transferred Deputy Chief Harrington and Deputy Inspector James Grant and
further stripped these officers of their guns and
badges. (Id. at ¶ 73).
On April 13, 2016, just a week after Capul’s
meeting with the FBI and IAB, Commissioner
Bratton transferred Capul from the highly coveted
position of Executive Officer of Manhattan North to
an administrative position as executive officer of
the School Safety Division. (Compl. ¶ 74). At the
time of his transfer, Capul was considered a highly
respected chief with an unblemished record. (Id. at
¶ 75). Further, Capul was not a target of the FBI’s
investigation, and the NYPD did not accuse Capul
of corruption or misconduct. (Id. at ¶ 76).
Put simply, Capul’s transfer was yet another in a
series of actions that the NYPD took to give the
appearance that it was addressing the FBI’s corruption concerns. (Compl. ¶ 77). Unfortunately for
him, Capul’s transfer immediately attracted press
coverage, with the NYPD telling the media that
Capul had been “reassigned to an administrative

14a
position pending further review.” (Id. at ¶ 78). At
least one headline from the New York Daily News
implicated Capul in the corruption scandal, reading, “Deputy Chief Andrew Capul is latest officer
disciplined in ongoing FBI corruption probe into
the NYPD.” (Id. at ¶ 79). So while Capul was found
guilty in the court of public opinion, the NYPD successfully deflected attention from other, higherranking officials who had been previously been the
subject of press attention. (Id. at ¶ 80).
On April 29, 2016, DeBlasio met with FBI
agents, at which time he was assured that he was
not the target or subject of the investigation.
(Compl. ¶¶ 81-82). Indeed, after Plaintiffs’ meetings
with the FBI, Richter told each Plaintiff that he
had done nothing wrong. (Id. at ¶ 83). Richter stated that Plaintiffs were simply witnesses and that
everything would be handled administratively by
the NYPD. (Id. at ¶ 84). This was confirmed by CEA
attorney Lou LaPietra, who advised that Plaintiffs
had done nothing wrong. (Id. at ¶ 85). On May 5,
2016, Richter called Rodriguez to advise that he
had just left a meeting with Commissioner Bratton,
who informed Richter that Rodriguez’s name had
not come up anywhere and that he would soon be
back on track with his career. (Id. at ¶ 86). Richter
repeated these promises to Rodriguez on a number
of other occasions in May 2016. (Id. at ¶ 87).
Although Plaintiffs told the NYPD and the CEA
about their contacts with the FBI, and even
advised the NYPD that they would be willing to
speak to NYPD investigators about these contacts,
the NYPD showed no interest in further question-

15a
ing Plaintiffs, except for initially notifying DeBlasio
that IAB would interview him. (Compl. ¶ 88). IAB
later cancelled DeBlasio’s scheduled interview. (Id.
at ¶ 89). Richter told DeBlasio that Deputy Commissioner Byrne cancelled the interview indefinitely.
(Id. at ¶ 90).
4.

Plaintiffs’ Forced Resignations

In May 2016, Commissioner Bratton and Deputy
Commissioner Byrne created two lists for officers
implicated by the FBI’s investigation, regardless of
proof (or even suspicion) of wrongdoing: a “fired”
list and an “arrested” list. (Compl. ¶ 94). DeBlasio
was put on the fired list. (Id. at ¶ 95). Then, on May
20, 2016, Richter told Capul, Rodriguez, and Colon,
in separate conversations, that Commissioner
Bratton was seeking their retirements, and that
the Commissioner wanted those retirements effective as of May 31, 2016. (Id. at ¶ 96). Richter
conveyed to Plaintiffs the seriousness of the Commissioner’s intent with a threat: if Plaintiffs did
not retire, the NYPD would charge them and terminate them notwithstanding the outcomes of their
respective hearings. (Id. at ¶¶ 97-104).
Richter told Colon, in sum and substance, that
Colon had no choice but to retire, because if he did
not, the NYPD would file unspecified charges
against him. (Compl. ¶ 97). Richter further reminded
Colon that even if he challenged the as-yetunknown charges at a hearing, it would not matter
because the findings would be non-binding; the
Commissioner was already intent on terminating
Colon; and the Commissioner would in fact termi-

16a
nate Colon notwithstanding the outcome of the
hearing. (Id. at ¶ 98).
According to Plaintiffs, Commissioner Bratton’s
demand that Plaintiffs retire represented the
City’s policy of removing “tainted” employees from
the Department so that the Department could put
the scandal behind it. (Compl. ¶ 106). Significantly,
however, Commissioner Bratton’s motive was not
benign, nor were his actions genuine efforts to
remove wrongdoers from the Department, as evidenced by the fact that Banks’s retirement (and the
retirement of other implicated high-ranking officials, such as Deputy Chief Jimmy McCarthy,
Inspectors Stephenson and Brian McGinn, and
Deputy Inspectors Michael Endall and Deddo) was
not similarly sought. (Id. at ¶ 107).
Ultimately, Commissioner Bratton, through
Richter, presented each Plaintiff with an ultimatum: retire immediately and retain certain benefits
or face disciplinary charges that would result in
certain termination. (Compl. ¶¶ 108-25). No one,
including neither of the Individual Defendants,
informed any Plaintiff of any charge against him,
or of any basis that could give rise to any charge
against him. (Id. at ¶¶ 122, 126, 146). For this reason, Plaintiffs were unable to gauge the chance of
success in defending against any such charges. (Id.
at ¶ 122).
Faced with the threat of losing substantial
employment benefits that would be forfeited in the
event of a termination, but not a retirement, each
Plaintiff submitted retirement papers per the Commissioner’s direction. (Compl. ¶ 146). Colon capitu-

17a
lated to the Commissioner’s demand and filed his
retirement paperwork on May 24, 2016. (Id. at
¶ 116). Rodriguez filed amended retirement paperwork on or about June 27, 2016. (Id. at ¶ 141).
Capul filed amended retirement paperwork on
June 29, 2016. (Id. at ¶ 138). DeBlasio filed retirement paperwork on July 16, 2016. (Id. at ¶ 145).
After their retirements, Plaintiffs all received
“good guy” letters from Commissioner Bratton. (Id.
at ¶ 147).2
In August 2016, Plaintiffs commenced the grievance process against the City and the NYPD, pursuant to their collective bargaining agreement,
arguing that they had retired under duress, such
that the forfeiture of their accrued time had been
void. (Compl. ¶ 148). Of potential significance to the
instant motion, while Plaintiffs grieved their benefit calculations, they elected not to grieve the circumstances of their departures from the NYPD
through an Article 78 proceeding in New York
State Supreme Court. (Dkt. #36 at 7-10). On July
16, 2018, hearing officer David N. Stein agreed
with Plaintiffs and determined that their retirements were given under duress. (Compl. ¶ 149; see
generally Arbitration Award). In Arbitrator Stein’s
Opinion and Award, he found it “clear that the
Department interfered with the grievants’ exercise
of their rights to run their accrued compensatory
2

A “good guy letter” is a letter that states, in relevant
part, that the subject of the letter retired from the NYPD in
good standing, and it is a requisite for the subject to obtain a
license to carry a pistol as a retiree.

18a
time and unusual annual leave prior to retirement.
The Department’s actions amounted to a breach of
[their collective bargaining agreement].” (Arbitration Award 39).
In June 2017, all four Plaintiffs submitted letters
of reinstatement to the NYPD. (Compl. ¶¶ 167-70).
None of the Plaintiffs received a response. (Id.).
B. Procedural History
Plaintiffs filed the Complaint in this action on
May 13, 2019, asserting one cause of action for the
violation of their due process rights under the
Fourteenth Amendment. (Dkt. #1). On July 12,
2019, Defendants filed a letter seeking to have this
case consolidated with another case, Grant v. City
of New York, William J. Bratton and Lawrence
Byrne, No. 19 Civ. 4334 (ALC), brought by another
former NYPD employee, which was proceeding
before Judge Carter. (Dkt. #21). On July 24, 2019,
Plaintiffs filed a letter in opposition to the motion
to consolidate. (Dkt. #28). The plaintiff in Grant
also filed a letter opposing Defendants’ requested
consolidation. (Dkt. #29). On July 29, 2019, the
Court denied the motion to consolidate the cases.
(Dkt. #30).
On August 9, 2019, Defendants filed a letter
seeking a pre-motion conference concerning their
anticipated motion to dismiss. (Dkt. #31). Plaintiffs
filed a letter in opposition on August 13, 2019.
(Dkt. #32). The Court held a pre-motion conference
on September 16, 2019. (Dkt. #36 (transcript)). At
that conference the Court set a briefing schedule

19a
and ordered discovery stayed pending resolution of
Defendants’ motion to dismiss. (See id.).
On October 28, 2019, Defendants filed their
motion to dismiss. (Dkt. #38, 39). Defendants’
motion asserts three grounds for dismissal: (i)
Plaintiffs fail to state a claim for municipal liability against the City of New York; (ii) Plaintiffs’ due
process claim fails as a matter of law; and (iii)
Commissioner Bratton and Deputy Commissioner
Byrne are entitled to qualified immunity. (See generally Dkt. #39). On December 2, 2019, Plaintiffs
filed a brief and declaration in opposition to Defendants’ motion. (Dkt. #40, 41). Defendants filed a
reply brief on December 20, 2020. (Dkt. #44). On
March 18, 2020, Plaintiffs filed a letter alerting the
Court to a supplemental authority from the Second
Circuit Court of Appeals. (Dkt. #45). Accordingly,
the motion is fully briefed and ripe for decision.
DISCUSSION
A. Applicable Law
“To survive a motion to dismiss [under Rule
12(b)(6)], a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face.’ ” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A
complaint is facially plausible “when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is
liable for the misconduct alleged.” N.J. Carpenters

20a
Health Fund v. Royal Bank of Scotland Grp., PLC,
709 F.3d 109, 120 (2d Cir. 2013). But while a plaintiff must demonstrate the plausibility of his claims,
he need not show that a judgment in his favor is
probable. Iqbal, 556 U.S. at 678.
B. Analysis
Defendants assert three arguments in support of
their motion to dismiss the Complaint. First, they
argue that the claims against the City of New York
and the Individual Defendants in their official
capacities cannot proceed because Plaintiffs have
not adequately pleaded that the alleged constitutional deprivations were part of a municipal custom or policy. (See Def. Br. 6-10). Second, they
argue that Plaintiffs’ claim that their resignations
were coerced is not actionable as a due process violation because Plaintiffs could have sought to challenge the voluntariness of their resignations via an
Article 78 special proceeding in New York State
Supreme Court. (See id. at 10-14). Third, Defendants argue that Commissioner Bratton and
Deputy Commissioner Byrne are shielded from suit
by the doctrine of qualified immunity. (See id. at
14-15). The Court addresses Defendants’ second
argument first, as that issue is dispositive.
1.

Plaintiffs Have Failed to State a Procedural Due Process Claim

The Fourteenth Amendment’s Due Process
Clause provides that “[n]o State shall . . . deprive
any person of life, liberty, or property, without due

21a
process of law.” U.S. Const. amend. XIV, § 1. The
Due Process Clause thus bars arbitrary government action, and guarantees procedural fairness
when a state action deprives a citizen of a protected
interest in life, liberty, or property. See Daniels v.
Williams, 474 U.S. 327, 331 (1986). “The fundamental requirement of the Due Process Clause is
that an individual be given the opportunity to be
heard at ‘a meaningful time and in a meaningful
manner.’ ” Patterson v. City of Utica, 370 F.3d 322,
336 (2d Cir. 2004) (quoting Goldberg v. Kelly, 397
U.S. 254, 267 (1970)).
A procedural due process claim comprises two
elements: (i) the existence of a property or liberty
interest that was deprived; and (ii) deprivation of
that interest without due process. Bryant v. New York
State Educ. Dep’t, 692 F.3d 202, 218 (2d Cir. 2012);
Ciambriello v. Cty. of Nassau, 292 F.3d 307, 313
(2d Cir. 2002). Defendants do not contest that
Plaintiffs had a property interest in their employment with the NYPD. (See Def. Br. 10). Rather,
they contend that Plaintiffs’ claim fails under the
second prong of the analysis because, notwithstanding Defendants’ purported violation of various procedural safeguards, the State provided
other procedures to protect Plaintiffs’ property
interests in the face of those violations. (See id.).
Thus, the question is whether the process afforded
to Plaintiffs was sufficient to satisfy the requisites
of the Due Process Clause.
Plaintiffs argue that when the property interest
at stake is continued employment, the Constitution
requires pre-deprivation process, including some

22a
kind of hearing, notice of the charges, an explanation of the employer’s evidence, and an opportunity
to present the employee’s side of the story. (See Pl.
Opp. 10 (citing Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532, 538-46 (1985))). Thus, the crux
of the dispute is whether, when a state employee is
coerced to resign from employment, the employee
must be afforded pre-deprivation process or
whether post-deprivation process, in the form of an
Article 78 proceeding, suffices. Resolution of this
issue requires a careful study of Supreme Court
and Second Circuit precedent.
a.

Pre-Deprivation Process Is Not
Required Where Plaintiffs Resign
Their Employment, Even If Coerced
to Do So

In Parratt v. Taylor, 451 U.S. 527 (1981), the
Supreme Court acknowledged the many cases in
which it had held that due process requires a predeprivation hearing before the state interferes with
any liberty or property interest. Id. at 537-38. However, the Court also “recognized that post-deprivation remedies made available by the State can
satisfy the Due Process Clause.” Id. at 538. In particular, the Court
recognize[d] that either the necessity of quick
action by the State or the impracticality of
providing any meaningful pre-deprivation
process, when coupled with the availability of
some meaningful means by which to assess
the propriety of the State’s action at some

23a
time after the initial taking, can satisfy the
requirements of procedural due process.
Id. at 539. The Court then summarized its teachings in the area:
Our past cases mandate that some kind of
hearing is required at some time before a
State finally deprives a person of his property
interests. The fundamental requirement of
due process is the opportunity to be heard and
it is an “opportunity which must be granted at
a meaningful time and in a meaningful manner.” Armstrong v. Manzo, 380 U.S. 545, 552,
85 S. Ct. 1187, 1191, 14 L.Ed.2d 62 (1965).
However, . . . we have rejected the proposition that “at a meaningful time and in a
meaningful manner” always requires the
State to provide a hearing prior to the initial
deprivation of property. This rejection is
based in part on the impracticability in some
cases of providing any pre-seizure hearing
under a state-authorized procedure, and the
assumption that at some time a full and
meaningful hearing will be available.
Id. at 540-41 (emphasis in original).
The Court further explained that “[t]he justifications which we have found sufficient to uphold takings of property without any pre-deprivation
process are applicable to a situation such as the
present one involving a tortious loss of a prisoner’s
property as a result of a random and unauthorized
act by a state employee.” 451 U.S. at 541. The

24a
Court reasoned that in such cases, the loss is not
the result of some established state procedure and
the state cannot predict precisely when the loss
will occur. Id. Because the deprivation in Parratt,
which was caused by the negligent misplacement of
a prisoner’s property, was beyond the control of the
state, it would have been impracticable and impossible for the state to provide a meaningful hearing
before the deprivation. Id. At the same time, excusing the pre-deprivation hearing because the deprivation was random and unauthorized did not
excuse the state from providing a meaningful postdeprivation remedy. Id. The Court held that the
State of Nebraska’s tort remedy provided sufficient
post-deprivation process. Id. at 543.
Three years later, in Hudson v. Palmer, 468 U.S.
517 (1984), the Supreme Court extended the reasoning of Parratt to intentional deprivations of
property. Id. at 533. As just discussed, the Parratt
Court had reasoned that when deprivations of
property are effected through random and unauthorized conduct of a state employee, pre-deprivation procedures are simply impracticable, since the
state cannot know when such deprivations will
occur. Id. The Hudson Court could discern no logical distinction between negligent and intentional
deprivations of property, insofar as the “practicability” of affording pre-deprivation process was concerned, because the state can no more anticipate
and control in advance the random and unauthorized intentional conduct of its employees that it
can anticipate negligent conduct. Id. Accordingly,
the Court concluded that even intentional depriva-

25a
tions of property, if random and unauthorized, do
not violate the Due Process Clause if adequate
post-deprivation remedies are available. Id.
The Second Circuit had occasion to apply the
principles of Parratt and Hudson in Giglio v. Dunn,
732 F.2d 1133 (2d Cir. 1984). In that case, Giglio
was a tenured high school principal who resigned
after the school district’s superintendent began
harassing him with the intent of inducing him to
have a nervous breakdown. Id. at 1134. Giglio
claimed that he had been forced to take full-time
disability leave due to mental health issues occasioned by the harassment. Id. Six months later, the
district and board superintendents, who were “acting at the direction” of the school board’s trustees,
told Plaintiff “that the Board of Education would
abolish his position at a meeting that evening
unless he agreed to return to work” by a date certain. Id. Giglio informed the superintendents that
he could not return to work because of his condition, but he was again informed that his position
would be abolished unless he agreed to resign. Id.
Instead of facing a vote at the meeting, Giglio
resigned several hours after receiving these
threats. Id. Giglio then filed suit alleging that his
resignation had been coerced and that he had been
denied due process because a hearing did not precede the coercion. Id. The district court dismissed
Giglio’s complaint for failure to state a claim, holding that a pre-coercion hearing would have been
“not only impractical but virtually impossible,”
and, further, that Giglio’s post-deprivation remedy
under Article 78 of the New York Civil Practice

26a
Law, “which is an amalgam of the common law
writs of certiorari to review, mandamus, and prohibition,” provided adequate due process. Id.
The Second Circuit agreed that Giglio’s postdeprivation remedies afforded him sufficient
process, explaining that “[h]ad an Article 78 hearing been held, the court, with all the facts before it,
could have determined whether [Giglio’s] resignation was coerced, and avoiding the constitutional
thicket, could have ordered such reinstatement and
monetary relief as was appropriate.” 732 F.2d at
1134. The Court observed that resignations (even if
not truly voluntary) are distinguishable from ordinary firings for two reasons: (i) a resignation is not
a unilateral act on the part of the employer; and (ii)
it does not purport to be for cause. Id. And because
a coerced resignation is “simply the submission by
an employee to pressure exerted by a superior . . .
it is hard to visualize what sort of prior hearing the
Constitution would require the employer to conduct.” Id. at 1135. Thus, where an Article 78 proceeding would give the employee a meaningful
opportunity to challenge the voluntariness of his
resignation, the employee is not deprived of due
process simply because he failed to avail himself of
that opportunity. Id.
The Second Circuit continues to cite Giglio with
approval. In Jaeger v. Bd. of Educ. of Hyde Park
Central School Dist., 1997 WL 625006 (TABLE),
125 F.3d 844 (2d Cir. 1997) (summary order), the
plaintiff alleged that he had been coerced into
resigning by the Board of Education. Id. at *1. The
Court found that the plaintiff failed to state a due

27a
process violation because he had not established a
protected interest in his job. Id. at *2. The Court
went on to find that, even if the plaintiff had a protected interest in continued employment, his due
process claim would still fail because of the availability of an Article 78 proceeding that “provides
the victim of an allegedly coerced resignation with
adequate procedural protection.” Id. Citing Giglio,
the Court held that the Board of Education was not
required to show that a pre-deprivation hearing
was impossible. Id.
The plaintiff in Stenson v. Kerlikowske, 2000 WL
254048 (TABLE), 205 F.3d 1324 (2d Cir. 2000)
(summary order), similarly alleged that he had
been coerced into resigning by the City of Buffalo
Police Department after a positive drug test. Id. at
*1. On appeal, Stenson argued that the district
court had erred in concluding that the pre-deprivation process that he received satisfied the notice
requirements for public-sector employees that had
been set forth by the Supreme Court in Loudermill,
470 U.S. 532. Id. The Stenson Court began by summarizing the law as clarified by the Supreme
Court:
The Court explained in Loudermill that a predeprivation hearing ensures that there is “a
determination of whether there are reasonable grounds to believe that the charges
against the employee are true and support the
proposed action.” [470 U.S.] at 545-56. Thus, a
tenured public employee “is entitled to oral or
written notice of the charges against him, an

28a
explanation of the employer’s evidence, and
an opportunity to present his side of the
story.” Id. at 546.
Id. However, the Court went on to explain that
Stenson’s case was distinguishable because he
alleged that he had been coerced into resigning. Id.
Citing Giglio, the Court held that a pre-deprivation
hearing was neither feasible nor constitutionally
required in such circumstances. Id. In so doing, the
Court reaffirmed that when an employee claims
that he was coerced to resign, an Article 78 proceeding provides him with sufficient process. Id.
District courts also continue to rely on Giglio in
cases involving coerced resignations. As but one
example, in Cole-Hatchard v. Hoehmann for Town
of Clarkstown, N.Y., No. 16 Civ. 5900 (VB), 2017
WL 4155409 (S.D.N.Y. Sept. 18, 2017), a former
employee of the Clarkstown Police Department
brought suit alleging that he had been deprived of
due process when he was forced to resign. Id. at *7.
Citing Giglio and Stenson, the district court held
that because the plaintiff elected not to bring an
Article 78 proceeding to challenge the voluntariness of his resignation, the allegation that he was
denied due process was implausible. Id.
This line of cases would seem to apply squarely
to the facts of the instant case. Here, too, Plaintiffs
allege that Defendants violated their procedural
due process rights in short-circuiting established
state procedures for terminating them. Here, too—
like the plaintiffs in Giglio, Jaeger, Stenson, and
Cole-Hatchard—Plaintiffs short-circuited the pre-

29a
deprivation notice and heading procedures to
which they were entitled by resigning. If Plaintiffs
had wanted to be served with notice of the charges
against them, followed by an opportunity to be
heard, as they now claim, they could have rejected
the demand that they retire, and invoked their
rights to be disciplined pursuant to established
procedures. Instead, Plaintiffs strategically avoided the filing of charges against them—and the procedural protections attendant to the filing of such
charges—by resigning.
b.

Giglio Applies to Plaintiffs’ Claim

In response to these cases, Plaintiffs advance two
arguments: (i) the Giglio line of cases does not
apply here; and (ii) Giglio is no longer good law.
Plaintiffs’ first argument is premised on the contention that Giglio applies only where the deprivation was random and unauthorized, and that when
the deprivation was based on established procedures, pre-deprivation process is required. (Pl.
Opp. 13-14). Plaintiffs assert that their resignations, coerced by high-ranking decision makers,
were not “random and unauthorized,” as in Giglio,
but rather were entirely foreseeable and predictable to Defendants, thereby entitling Plaintiffs
to pre-deprivation process. (See id. at 15-17).
Plaintiffs miss the point of Giglio and its progeny. While it is true that the Second Circuit has held
that deprivations caused by high-ranking decisionmakers are not random and unauthorized—and
may therefore require pre-deprivation process—

30a
those cases do not address deprivations caused by
resignations. See, e.g., Hellenic American Neighborhood Action Committee (“HANAC”) v. City of
New York, 101 F.3d 877 (2d Cir. 1996) (addressing
claim by city contractor that it was debarred from
obtaining city procurement without due process of
law); Rivera-Powell v. N.Y. Bd. of Elections, 470 F.
3d 458 (2d Cir. 2006) (addressing whether judicial
candidate was removed from ballot without procedural due process); see also Henry v. City of New York,
638 F. App’x 113 (2d Cir. 2016) (summary order)
(addressing due process claim brought by plaintiffs
who were terminated from employment); DeSimone
v. Bd. of Educ. S. Huntington Union Free Sch.
Dist., 604 F. Supp. 1180 (E.D.N.Y. 1985) (addressing claim brought by tenured teacher who was terminated by Board of Education).3 The point of
Giglio is that resignations, even if involuntary, differ from firings and other typical deprivations in
that they are not unilateral acts on the part of the
employer and they do not purport to be for cause.
See Giglio, 732 F.2d at 1134-35 (“When an employee
resigns, the only possible dispute is whether the
3

Plaintiffs cite Moffitt v. Town of Brookfield, 950 F.2d
880 (2d Cir. 1991). But the only support for their argument in
Moffit is in a footnote in the background section of the opinion
consisting of dicta, which states that “[i]f Moffit was coerced
into surrendering a job in which he had a constitutionally
protected property interest, a violation of section 1983
occurred.” Id. at 883 n.2. The dispositive issue in that case
was whether the appellate court had jurisdiction over the district court’s denial of qualified immunity. See generally id. at
881-87.

31a
resignation was voluntary or involuntary, and this
cannot be determined in advance.”).
Plaintiffs cite no binding authority for the proposition that pre-deprivation process is required
where a plaintiff resigns, even if the resignation
was allegedly coerced by a high-ranking decisionmaker.4 And the distinction between firings and
resignations makes practical sense: When an
employee resigns, as opposed to being terminated,
the defendant “ha[s] no opportunity or reason to
bring him up on charges, or to hold a hearing,”
inasmuch as the employee quit before giving the
defendant an opportunity to do so. Fortunato v.
Liebowitz, No. 10 Civ. 2681 (AJN), 2012 WL
6628028, at *6 (S.D.N.Y. Dec. 20, 2012).
Perhaps more importantly, the Second Circuit in
Stenson explicitly rejected the argument Plaintiffs
make here, albeit in a summary order. Stenson,
who resigned from his position, argued that “an
Article 78 proceeding only suffices when the under4
Plaintiffs cite several cases from courts outside of
the Second Circuit that, they claim, support their argument
that pre-deprivation process must be afforded to those who
are constructively discharged. (See Pl. Opp. 11-12 (citing
Findesian v. North East Ind. Sch. Dist., 749 F.2d 234 (5th
Cir. 1984)); id. at 14 (citing Lauck v. Campbell Cty., 627 F.3d
805, 812-13 (10th Cir. 2010); Knappenberger v. City of Phoenix,
566 F.3d 936, 941 (9th Cir. 2009); Eggers v. Moore, 257
F. App’x 993, 995 (6th Cir. 2007); Hargray v. Hallandale,
57 F.3d 1560, 1568 (11th Cir. 1995); Fowler v. Carrollton
Public Lib., 799 F.2d 976, 981 (5th Cir. 1986); Rao v. Gondi,
14 C 66, 2015 U.S. Dist. LEXIS 173049, at *7-11, 2015 WL
9489908 (N.D. Ill. Dec. 30, 2015)). However, Giglio is the case
that is binding on this Court.

32a
lying deprivation was random, unauthorized, or
unforeseeable, and that the Buffalo Police Department was required to provide [him with] an administrative hearing [ ] since the deprivation was
predictable and authorized pursuant to the official
Drug Testing Policy.” 2000 WL 254048, at * 1. The
Court disagreed, reasoning that “since Stenson
alleges that he was coerced into resigning, the
underlying deprivation was sufficiently unforeseeable that the availability of an Article 78 proceeding provided Stenson with a ‘meaningful
opportunity to challenge the voluntariness of his
resignation’ sufficient to ensure due process.” Id.
(quoting Giglio, 732 F.2d at 1135).
Unsurprisingly, district courts in this Circuit
have also rejected this argument. For example, in
Silverman v. City of New York, No. 98 Civ. 6277
(ILG), 2001 WL 1776157 (E.D.N.Y. Nov. 19, 2001),
the plaintiff alleged that he was entitled to predeprivation process despite his resignation because
his deprivation had been occasioned “not by the
random and unauthorized acts of low-level employees, but rather by individuals who had final
authority over the decision-making process.” Id. at
*2 (internal quotation marks omitted). The district
court explained why this argument was unavailing:
The problem with Silverman’s new allegations,
however, is that they fail to address a problem
the Court previously noted with respect to
these claims: the fact that Silverman was not
terminated from his position, but rather
resigned. In such a situation, it is hard to visu-

33a
alize what sort of prior hearing the Constitution would require the employer to conduct,
because the only possible dispute is whether
the resignation was voluntary or involuntary,
and this cannot be determined in advance.
Accordingly, such a hearing would make little
sense. Instead, Silverman should have availed
himself of the post-deprivation remedy available to him: the commencement of an Article 78
proceeding.
Silverman argues that, because the persons
who allegedly coerced him to resign are
“municipal policymakers,” an Article 78 proceeding is not an adequate post-deprivation
remedy. Nothing in Giglio, however, suggests
that the holding in that case should apply with
any less force where an employee resigns due
to a municipal policy, as opposed to a “random,
unauthorized act” of a low-level employee. In
fact, in Stenson, the Second Circuit squarely
rejected the distinction Silverman asks the
Court to draw.
Id. at *3 (internal citations and quotations omitted).
Similarly, in Dodson v. Bd. of Educ. of the Valley
Stream Union Free Sch. Dist., 44 F. Supp. 3d 240
(E.D.N.Y. 2014), the district court applied Giglio to
dismiss a tenured high school teacher’s due process
claim that he had been coerced into resigning, even
as the court found that the deprivation had been
caused by a school board and district that, the
court explicitly held, maintained municipal policy-

34a
making authority. Id. at 247-49. And in Weslowski
v. Zugibe, 14 F. Supp. 3d 295 (S.D.N.Y. 2014), the
district court held that
whether a deprivation was “random and unauthorized” or whether it was pursuant to “established government procedures” is “moot” in the
context of a public employee’s wrongful-termination claim, because . . . an Article 78 proceeding . . . allows a petitioner specifically to
raise claims that the employer was biased and
prejudged the outcome of the termination
process.
Id. at 316 (internal quotation marks and alterations omitted).
The distinction between resignations and terminations is perhaps made most clear in Fortunato,
which involved both. In that case, the defendants,
having mistaken the plaintiff for a probationary
rather than permanent employee, terminated him
without a hearing. 2012 WL 6628028, at *2-3.
Roughly a month after his termination, he was
reinstated to his position. Id. at *4. However, on
the day that the plaintiff returned to work, he
found the conditions of his reinstatement unacceptable and resigned from his position, describing his
resignation as a constructive discharge. Id. The
plaintiff brought claims alleging that his procedural due process rights had been violated by both his
original termination and his constructive discharge. Id. at *4-7.

35a
The district court dismissed the plaintiff’s due
process claim premised on his constructive discharge, observing that that
[a] substantial line of Second Circuit precedent has held that, in the case of an alleged
constructive discharge in New York, the lack
of a hearing before a plaintiff’s resignation—
i.e., before the plaintiff’s alleged constructive
discharge—does not deprive the plaintiff of
procedural due process because New York has
provided an opportunity for a post-deprivation
hearing.
2012 WL 6628028, at *4. In this regard, the plaintiff had argued that a pre-deprivation hearing
would have been practical in his situation, because
it was obvious to defendants that they were forcing
him to resign. Id. at *5. The court rejected this
argument, citing Stenson, explaining that the issue
in a case of a coerced resignation is not whether the
deprivation is random, unauthorized, or foreseeable. Id. Rather, the Second Circuit has established
a categorical rule that a pre-deprivation hearing is
impractical in cases of coerced resignation. Id.5
5
Following this logic, the Court found a plausible due
process claim with respect to the plaintiff’s claim for his termination. Fortunato v. Liebowitz, No. 10 Civ. 2681 (AJN),
2012 WL 6628028, at *6 (S.D.N.Y. Dec. 20, 2012). There, the
question of whether the deprivation occurred pursuant to
established state procedures or random, unauthorized acts of
state employees was relevant. Id. That is, in answering this
question, it did matter whether the defendants were the ultimate decision-makers because, if so, the deprivation would
not be considered random and unauthorized conduct. See id.

36a
Plaintiffs urge the Court to adopt a proposition
made in dicta in DeSimone, 604 F. Supp. at 1184,
that Giglio would have been decided differently if
Giglio had been coerced to resign pursuant to formal official action by the Board of Education,
rather than as a consequence of informal, unofficial, and unauthorized threats by individual superiors. (Pl. Opp. 17). This Court demurs. Even if this
distinction were relevant in the context of a coerced
resignation, Plaintiffs’ coerced resignations were
not caused by formal action of the City or official
municipal policy. The relevant question is, instead,
whether the deprivation was effectuated pursuant
to established state procedures or in violation of
them, even when the decision is made by a highranking person.
This distinction was addressed in HANAC, where
the Second Circuit began by summarizing the law
with respect to due process violations:
When reviewing alleged procedural due process
violations, the Supreme Court has distinguished
between (a) claims based on established state
procedures and (b) claims based on random,
unauthorized acts by state employees. See
Hudson v. Palmer, 468 U.S. 517, 532, 104 S.
Ct. 3194, 3203, 82 L.Ed.2d 393 (1984); Parratt
v. Taylor, 451 U.S. 527, 541, 101 S. Ct. 1908,
1916, 68 L.Ed.2d 420 (1981), overruled on other
grounds by Daniels v. Williams, 474 U.S. 327,
106 S. Ct. 662, 88 L.Ed.2d 662 (1986). In the
latter case, the Due Process Clause of the Fourteenth Amendment is not violated when a state

37a
employee intentionally deprives an individual
of property or liberty, so long as the State provides a meaningful post-deprivation remedy.
Hudson v. Palmer, 468 U.S. at 531, 533, 104 S.
Ct. at 3202-03, 3203-04. When the deprivation
occurs in the more structured environment of
established state procedures, rather than random acts, the availability of post-deprivation
procedures will not, ipso facto, satisfy due
process. Id. at 532, 104 S. Ct. at 3203; Logan v.
Zimmerman Brush Co., 455 U.S. 422, 435-36,
102 S. Ct. 1148, 1157-58, 71 L.Ed.2d 265
(1982).
101 F.3d at 880. The plaintiff in HANAC complained that the City’s chief procurement officer
had instructed all city agency heads to reject all of
the plaintiff’s proposals and to cancel all existing
contracts with the plaintiff as they came up for
renewal, resulting in a de facto debarment. Id. at
881. The Second Circuit observed that the plaintiff
made no claim that the due process violation was
caused by an established state procedure, such as
the City Charter or Procurement Policy Board
(“PPB”) Rules. Id. “To the contrary, [the plaintiff]
argue[d] that state officials acted in flagrant violation of the City Charter and PPB Rules.” Id.
(emphasis added).
Despite the HANAC plaintiff’s allegation that
the officials who denied it due process were highranking policymakers, the Court held that the deprivation was still random and arbitrary because it
had not been done according to established state

38a
procedures. 101 F.3d at 881-82. Accordingly, the
Second Circuit stated that, following “Parratt,
Hudson and their progeny, . . . there is no constitutional violation (and no available § 1983 action)
when there is an adequate state post-deprivation
procedure to remedy a random, arbitrary deprivation of property or liberty.” Id. at 882 (emphasis in
original).
A sister court in this District noted as much in
Carnell v. Myers, No. 17 Civ. 7693 (KMK), 2019 WL
1171489 (S.D.N.Y. Mar. 13, 2019). There, the court
dismissed the plaintiff’s procedural due process
claim, in which he alleged that he had been coerced
to surrender his paramedic license without a formal hearing. Id. at *5-6. In so doing, the court cited
Giglio’s holding that the availability of an Article
78 proceeding satisfies procedural due process in a
case where a New York State employee claims a
coerced resignation. Id. at *6. Further, citing
HANAC, the court explained that in coercing the
plaintiff to surrender his license, defendants had
violated state procedures, rather than acted pursuant to such procedures, such that the alleged
deprivation was thus a “random, unauthorized act”
for which an Article 78 procedure sufficed. Id. at
*5.
As in HANAC and Carnell, Plaintiffs here allege
that Commissioner Bratton and Deputy Commissioner Byrne violated New York State and City
Law that entitled them to certain pre-deprivation
process by prejudging the outcome of their hearings. Plaintiffs make no claim that their alleged
due process violation was caused by an established

39a
state procedure, such as the City Charter. Under
Giglio and HANAC, they have failed to establish a
due process violation.
c.

New York’s Article 78 Procedure
Provided Plaintiffs with Adequate
Post-Deprivation Process

No one disputes that Plaintiffs, following their
retirements, had the opportunity to challenge the
voluntariness of their respective decisions by commencing an Article 78 proceeding. Plaintiffs do not
explain how the Article 78 proceeding, in which
they could have challenged their allegedly coerced
resignations, would have provided insufficient due
process. Their failure to avail themselves of such
post-deprivation procedure does not render their
due process claims viable. See HANAC, 101 F. 3d at
881. Plaintiffs are not entitled to circumvent established due process protections and then claim they
were never afforded such protections. See Finley v.
Giacobbe, 79 F.3d 1285, 1296 (2d Cir. 1996) (concluding that plaintiff who resigns before employer
takes all the steps necessary to fire her cannot complain of procedural due process violation, because
“the resignation effectively deprives the employer
of the opportunity to comply with the procedural
obligations”).
Plaintiffs’ argument that Giglio is no longer good
law also fails. The Second Circuit relied on Giglio
in Stenson, a 2000 decision, and thereafter has continued to cite Giglio as good law. See, e.g., Hoover
v. Cty. of Broome, 340 F. App’x 708, 711 (2d Cir.

40a
2009) (summary order) (“Even assuming the evidence could support the inference that Hoover suffered a constructive discharge, we agree with the
district court that Hoover would not be entitled to
a pre-deprivation remedy for the constructive discharge.”). A plethora of district courts have as well.
See, e.g., Dodson, 44 F. Supp. 3d at 248 (“[I]t is
well-settled that where a New York state employee
resigns and later contends that his resignation was
not voluntary, the lack of a hearing prior to the resignation does not deprive the employee of procedural due process because New York has provided an
opportunity for a post-deprivation hearing in the
form of an Article 78 proceeding.” (citing Giglio,
732 F.3d at 1135)); Silverman, 2001 WL 1776157,
at *3 (noting that a pre-deprivation hearing “would
make little sense” where plaintiff “was not terminated from his position, but rather resigned”);
Cole-Hatchard, 2017 WL 4155409, at *7 (dismissing police officer’s due process claim where he
resigned); Carnell, 2019 WL 1171489, at *6
(“[D]istrict courts in this Circuit have subsequently
applied Giglio’s holding that the availability of an
Article 78 proceeding satisfies procedural due
process in a case where a New York state employee
claims a coerced resignation.” (internal quotation
marks omitted)); Guttilla v. City of New York,
No. 14 Civ. 156 (JPO), 2015 WL 437405, at *8
(S.D.N.Y. Feb. 3, 2015) (citing Giglio in dismissing
plaintiff’s due process claim that she had been
coerced into resigning from her tenured position
with the New York City Department of Education
because of the availability of an Article 78 proceed-

41a
ing); Fotopolous v. Bd. of Fire Comm’rs of
Hicksville Fire Dep’t, 11 F. Supp. 3d 348, 371
(E.D.N.Y. 2014) (“While a public employee with a
property right in his job is normally entitled to a
pre-termination hearing, it is impractical for
employees who are constructively discharged to
obtain a pre-termination hearing, and the availability of an Article 78 proceeding subsequent to
termination provides adequate procedural due
process.”); McGann v. City of New York, No. 12 Civ.
5746 (PAE), 2013 WL 1234928, at *8 (S.D.N.Y.
Mar. 27, 2013) (“[E]ven assuming the dubious
proposition that McGann was constructively discharged, he was not denied due process . . .
[because] had [he] wished to challenge his resignation as coerced, McGann could have instituted an
Article 78 proceeding in New York state court.”);
Kruggel v. Town of Arietta, No. 6:11 Civ. 1250
(LEK) (ATB), 2013 WL 5304184, at *4 (N.D.N.Y.
Sept. 19, 2013) (holding that availability of an
Article 78 proceeding is all the process that is due
“where, as here, a plaintiff claims that her resignation was coerced, because the voluntariness of a
resignation cannot be determined in advance”).
Plaintiffs have provided the Court with no compelling reason to depart from established Second
Circuit law, and the Court sees no reason to do so.
For all of these reasons, Plaintiffs have failed to
state a due process claim. The Court thus need not
reach the questions of whether the City can be held
municipally liable, or whether either or both of
Commissioner Bratton and Deputy Commissioner
Byrne are entitled to qualified immunity.

42a
CONCLUSION
For the reasons explained above, Defendants’
motion to dismiss is GRANTED. Plaintiffs’ Complaint
is dismissed.
The Clerk of Court is directed to terminate all
pending motions, adjourn all remaining dates, and
close this case.
SO ORDERED.
Dated: May 27, 2020
New York, New York
/s/

KATHERINE POLK FAILLA
KATHERINE POLK FAILLA
United States District Judge

43a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 CIVIL 4313 (KPF)
DATE FILED May 28, 2020

ERIC

ANDREW J. CAPUL, DAVID COLON,
R. RODRIGUEZ, and PETER A. DEBLASIO,
Plaintiffs,
—against—

CITY OF NEW YORK, WILLIAM J. BRATTON, in
his individual and official capacities, and
LAWRENCE BYRNE, in his individual
and official capacities,
Defendants.
JUDGMENT
It is hereby ORDERED, ADJUDGED AND DECREED:
That for the reasons stated in the Court’s Opinion
and Order dated May 27, 2020, Defendants’ motion
to dismiss is GRANTED and Plaintiffs’ Complaint is
dismissed; accordingly, this case is closed.
Dated: New York, New York
May 28, 2020
RUBY J. KRAJICK
Clerk of Court
BY: /s/
K MANGO
Deputy Clerk

44a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Civil Action No.:
ANDREW J. CAPUL, DAVID COLON,
ERIC R. RODRIGUEZ, and PETER A. DEBLASIO,
Plaintiffs,
—against—
THE CITY OF NEW YORK, and
WILLIAM J. BRATTON and LAWRENCE BYRNE,
in their individual and official capacities,
Defendants.
COMPLAINT
JURY TRIAL REQUESTED
Plaintiffs, ANDREW J. CAPUL, DAVID COLON, ERIC
R. RODRIGUEZ, and PETER A. DEBLASIO (collectively
“Plaintiffs”), by and through their attorneys, LAW
OFFICES OF YALE POLLACK, P.C. and FAMIGHETTI &
WEINICK, PLLC, allege upon knowledge as to themselves and their own actions, and upon information
and belief as to all other matters, as follows:
JURISDICTION AND VENUE
1. This is a civil action based on Defendants’ violations of Plaintiffs’ rights as guaranteed to them

45a
by the Fourteenth Amendment to the United
States Constitution, as enforced by 42 U.S.C.
§ 1983 (“Section 1983”).
2. Jurisdiction of this Court is invoked pursuant
to 28 U.S.C. §§ 1331, 1343.
3. Venue is proper pursuant to 28 U.S.C. § 1391
because a substantial part of the events or omissions giving rise to this action alleged herein,
occurred in this district.
PARTIES
4. Plaintiff, Andrew J. Capul (“Capul”), is a resident of the State of New York, County of Rockland.
5. Plaintiff, Eric R. Rodriguez (“Rodriguez”), is a
resident of the State of New York, County of Staten
Island.
6. Plaintiff, David Colon (“Colon”), is a resident
of the State of New York, County of Orange.
7. Plaintiff, Peter A. DeBlasio (“DeBlasio”), is a
resident of the State of New York, County of
Queens.
8. Defendant, the City of New York (the “City”),
was and still is a municipality organized under the
laws of the State of New York and is a public
employer with a principal place of business in the
County of New York. The City operates, as one of
its many agencies, the New York City Police
Department (“NYPD”).

46a
9. Defendant, William J. Bratton (“Bratton” or
the “Commissioner”), was at all relevant times,
Commissioner of the NYPD, working in the County
of New York. As commissioner, Bratton was vested
by State and City law to have final policymaking
decisions with respect to matters concerning the
NYPD, and Bratton regularly exercised such final
policymaking authority. In fact, as described herein, Bratton directed, approved of, and/or acquiesced
in the decisions and acts which caused the Constitutional deprivations at issue here.
10. Defendant, Lawrence Byrne (“Byrne”), was,
at all relevant times Deputy Commissioner of Legal
Matters of the NYPD and acted under color of state
law with respect to the allegations herein. Byrne
was a high-ranking official of the NYPD and had
final authority over significant NYPD matters,
including the employment matters at issue here.
Byrne reported directly to the Commissioner.
FACTS
Andrew J. Capul
11. On July 16, 1984, the NYPD hired Capul.
12. For decades, Capul performed his duties in
an exemplary manner as evidenced by, among
other things, multiple promotions to the positions
of Sergeant, Lieutenant, Captain, Deputy Inspector, and Inspector, and receipt of consistent performance evaluations rating him above or well
above standards, and awards, honors, and recognitions, too numerous to list here.

47a
13. In June 2015, the NYPD again promoted
Capul via a discretionary promotion, to the rank of
Deputy Chief.
14. At the time of the relevant events described
herein, Capul held the position of Deputy Chief,
assigned to Patrol Borough Manhattan North, one
of the most highly respected and coveted assignments in the NYPD, showing the NYPD’s overwhelming trust in Capul.
15. At all relevant times, Capul was a member in
good standing of the NYPD.
Eric R. Rodriguez
16. In June 1992, the NYPD hired Rodriguez.
17. During his tenure with the NYPD, Rodriguez
performed his duties in an exemplary manner as
evidenced by, among other things, multiple promotions to the positions of Sergeant, Lieutenant, Captain, Deputy Inspector, and Inspector, and receipt
of consistent performance evaluations rating him
above or well above standards, and awards, honors,
and recognitions, too numerous to list here.
18. In November 2014, the NYPD again promoted Rodriguez via a discretionary promotion, to the
rank of Deputy Chief.
19. At the time of the relevant events described
herein, Rodriguez held the position of Deputy
Chief, assigned to Patrol Borough Brooklyn South,
one of the most highly respected and coveted

48a
assignments in the NYPD, showing the NYPD’s
overwhelming trust in Rodriguez.
20. At all relevant times, Rodriguez was a member in good standing of the NYPD.
David Colon
21. In July 1986, the NYPD hired Colon.
22. For decades, Colon performed his duties in
an exemplary manner as evidenced by, among
other things, multiple promotions to the positions
of Sergeant, Lieutenant, Captain, Deputy Inspector, and Inspector, and receipt of consistent performance evaluations rating him above or well
above standards, and awards, honors, and recognitions, too numerous to list here.
23. In July 2013, the NYPD again promoted
Colon via a discretionary promotion, to the rank of
Deputy Chief.
24. At the time of the relevant events described
herein, Colon held the position of Deputy Chief,
assigned to the NYPD’s Housing Bureau.
25. At all relevant times, Colon was a member in
good standing of the NYPD.
Peter A. DeBlasio
26. On January 4, 1984, DeBlasio was hired by
the NYPD as a police officer.
27. For decades, DeBlasio performed his duties
in an exemplary manner as evidenced by, among

49a
other things, multiple promotions to the positions
of, Sergeant, Lieutenant, and Captain, and receipt
of consistent performance evaluations rating him
above or well above standards, and awards, honors,
and recognitions, too numerous to list here.
28. In May 2007, the NYPD promoted DeBlasio
to the rank of Deputy Inspector.
29. DeBlasio continued to excel in this appointed
position, so in May 2011, the Commissioner promoted and designated DeBlasio to the rank of
Inspector.
30. At the time of the relevant events described
herein, DeBlasio held the position of Inspector,
assigned to Patrol Borough Brooklyn South as
operations commander.
31. At all relevant times, DeBlasio was a member in good standing of the NYPD.
Job Protections for Captains and Designated
Higher Ranks
32. Captains are represented by a collective bargaining unit, the Captains Endowment Association
(“CEA”).
33. The City and CEA are/were parties to a
collective bargaining agreement, entitled the Captains’ Endowment Association 2012-2019 Agreement (the “CBA”).
34. Captains may be detailed, appointed, or promoted for other assignments, i.e. ranks, such as

50a
Deputy Inspector, Inspector, and Deputy Chief (the
“Higher Ranks”).
35. The CEA continues to represent Captains
who have been designated for such assignments by
the Commissioner.
36. The CEA and the City have negotiated the
terms and conditions of employees represented by
the CEA.
37. A term of employment enjoyed by Captains
pursuant to the CBA and New York Civil Service
Law is that they cannot be terminated absent notification of charges against the employee and an
opportunity to be heard on the charges at a department hearing.
38. Captains designated or promoted for Higher
Ranks serve in such Higher Rank at the pleasure of
the Commissioner.
39. The Commissioner can demote Captains
serving in Higher Ranks, at-will, but the Commissioner cannot outright terminate a Higher Rank
from employment with the NYPD.
40. Rather, if the NYPD desires to terminate the
employment of Higher Rank, the NYPD must bring
charges against the Higher Rank, in the same manner as the NYPD is required to do for Captains,
that is, the NYPD must follow the directives of
New York Civil Service § 75, as well as NYPD
Patrol Procedures 206-06, 206-07, and 206-13.
41. Additionally, the NYPD must comply with
the Rules of the City of New York, 38 15-01, which

51a
sets forth the procedures for issuing, serving, and
hearing disciplinary charges.
42. Although Higher Ranks do not enjoy a property interest in the Higher Rank, they have a property interest in their continued employment with
the NYPD as a Captain.
43. Thus, notwithstanding any of the foregoing
procedures, Captains, and Captains serving in
Higher Ranks, cannot be terminated from the
NYPD without being afforded constitutionally adequate due process, meaning a notice of charges and
at least a minimal opportunity to be heard on the
charges prior to being deprived of their employment, i.e. terminated from the NYPD.
NYPD Corruption Probe
44. As early as 2013, the FBI was conducting an
extensive investigation concerning corruption in
the NYPD (the “Corruption”).
45. The investigation initially began with Ruel
Stephenson, an NYPD inspector who was protecting an establishment owned by Hamlet Peralta.
46. This investigation then led to the Chief of the
Department, Philip Banks (“Banks”), and Corrections Union President, Norman Seabrook
(“Seabrook”), including investigations into the
investments they had made.
47. Later, the FBI investigated suspicions that
police officers accepted gifts and vacations, in
exchange for favors for wealthy New York City

52a
businessmen, allegedly Jeremy Reichberg (“Reichberg”) and Jona Rechnitz (“Rechnitz”).
48. These businessmen allegedly had ties to
Mayor Bill de Blasio, and the suspected corruption
involved the highest-level officials within the
NYPD, including the then Chief of Department,
Banks.
49. When the investigation led to a roadblock on
Banks and Seabrook at that time, in December
2015, the FBI began to investigate others within
the NYPD, the most notable being Deputy Inspector Michael Deddo (“Deddo”) who, at the time, was
working in NYPD Internal Affairs (“IAB”).
50. As well, there was an investigation of Shaya
Alex Lichtenstein, who was later convicted of bribing police offers in the NYPD Gun License Division.
51. As part of the investigations, the FBI interviewed, or tried to interview, at least fifty (50) high
ranking NYPD officials, including the Plaintiffs,
and others, such as Deputy Chief Michael Harrington
(“Harrington”).
52. In addition to high ranking NYPD officials,
more than fifty (50) others were interviewed of
other ranks and titles, as well as civilians.
53. According to sources quoted by the New York
Daily News, these interviews were not intended to
target the officials as suspects in the investigation,
but rather were intended only to obtain information to further the investigation.

53a
54. Indeed, the FBI interviewed Harrington and
asked him about information he had relating to
Banks, Seabrook, Reichberg, and Rechnitz.
55. As part of this ongoing interviewing, on February 25, 2016, FBI agents met with Rodriguez,
Colon and others.
56. The agents questioned them but assured
Rodriguez and Colon that they were not targets or
subjects of the investigation.
57. On March 30, 2016, the FBI, as well as IAB,
tried to meet with Capul at his home, but he was
not home at the time.
58. On April 7, 2016, Rodriguez and Colon
received calls from the President of the CEA, Roy
Richter (“Richter”), telling them that Bratton was
going to transfer them because Bratton had to take
some action to respond to the articles that were
being published about the Corruption.
59. Richter told Rodriguez that Bratton selected
him because Reichberg lived in the Brooklyn south
area where Rodriguez worked.
60. Richter stated that the transfers of
Rodriguez and Colon were only temporary, suggesting that this was being done for appearances only,
and not because of any wrongdoing.
61. After consultation with his union and private
attorney, Capul arranged to meet with the FBI and
IAB on April 8, 2016.

54a
62. Concerning Capul’s April 8, 2016 meeting,
investigators assured Capul that he was not a subject or target of any investigation, but rather the
investigators were interested in just learning about
information of which they believed he had knowledge.
63. After the April 8, 2016 meeting with Capul,
he was again assured that he was not the subject or
target of any investigation by the AUSA’s office.
64. Because the allegations led to the highestranking NYPD officials, and perhaps directly to the
Mayor, who the NYPD was trying to protect, the
NYPD believed it needed to take immediate action,
at least for public relations purposes.
65. In fact, when the investigation came to light
in April 2016, Bratton told the press on April 7,
2016, that, “The public has expectations of its public officials, of its police department and certainly
the leadership of the department. If those expectations are not met, actions must be taken.”
66. Moreover, Byrne suggested to the press that
the corruption was not systemic, but rather confined to a small group of “senior” people, who had
“bad judgment.”
67. In other words, Bratton and Byrne were laying the foundation for showing the public that the
City, the NYPD, and their leaders, were taking
action against the bad actors and that they could
have faith in the NYPD because the alleged corruption was confined to a few high-level officials.

55a
68. Further, because the corruption allegations
reached the Mayor’s office, the Mayor, the City,
and NYPD top leaders, such as the Commissioner
and Chief Banks, they had an interest in insulating
themselves from the allegations.
69. Indeed, Bratton noted that this probe did not
reach the levels of the 1970s Knapp Commission
scandal or the 1990s Mollen Commission scandal.
70. Accordingly, the NYPD implicated “expendable” deputy chiefs and inspectors—career police
officials with impeccable records—while protecting
politically tied officers from implication in the Corruption.
71. For example, on the same day Bratton made
these comments, Bratton transferred Colon and
Rodriguez to desk duty.
72. Colon and Rodriguez were not accused of any
misconduct, no charges had been filed against
them, and they were not subjects of the FBI investigation.
73. Bratton also transferred Deputy Chief
Harrington and Deputy Inspector James Grant
(“Grant”), and further stripped these officers of
their guns and badges.
74. On April 13, 2016, just seven days after
Bratton’s comments and after assurances at the
April 8, 2016 meeting that he was a not a target or
subject of investigation, Bratton transferred Capul
from the highly coveted position as the Executive
Officer of Manhattan North, to an administrative

56a
position as executive officer of the School Safety
Division.
75. At the time of his transfer, Capul was considered a highly respected chief with an unblemished
record.
76. Further, Capul was not a target of the FBI’s
investigation and the NYPD did not accuse or
charge Capul with any allegations of corruption or
misconduct.
77. In other words, Capul’s transfer was another
in a series of actions which the NYPD took to give
the appearance that it was addressing the FBI’s
corruption concerns.
78. Moreover, Capul’s transfer immediately
attracted press coverage, with the NYPD telling
media that Capul was “reassigned to an administrative position pending further review.”
79. At least one headline from the New York
Daily News implicated Capul in the Corruption,
reading, “Deputy Chief Andrew Capul is latest officer disciplined in ongoing FBI corruption probe
into the NYPD.”
80. Thus, Capul was immediately guilty in the
world of public opinion and the NYPD was successfully employing scapegoats to take the heat off of
other higher-ranking officials, previously implicated by the press.
81. On April 29, 2016, FBI agents met DeBlasio.

57a
82. With respect to DeBlasio, like the others, the
agents posed some questions to him, but assured
him that he was not a target or subject of the investigation.
83. After Plaintiffs’ meetings with the FBI,
Richter told Plaintiffs that they had done nothing
wrong.
84. Richter stated that Plaintiffs were simply
witnesses and that everything was going to be handled administratively by the NYPD.
85. This was confirmed by CEA’s attorney, Lou
LaPietra, who advised that Plaintiffs had done
nothing wrong.
86. On May 5, 2016, Richter called Rodriguez to
advise that he just left a meeting with Bratton,
who informed him that Rodriguez’s name had not
come up anywhere and that he would soon be back
on track with his career.
87. Richter repeated these promises to
Rodriguez on a number of other occasions in May
2016.
88. Although Plaintiffs told the NYPD and the
CEA about their contact with the FBI and further
told the NYPD that they would be willing to speak
to NYPD investigators about the contact, the NYPD
showed no interest in further questioning the
Plaintiffs, except for initially notifying DeBlasio
that IAB would interview him.
89. IAB later canceled DeBlasio’s scheduled
interview.

58a
90. Richter told DeBlasio that Byrne canceled
the interview indefinitely.
91. But the FBI continued to pursue questioning
DeBlasio and obtained a subpoena compelling his
testimony at a grand jury.
92. DeBlasio asserted his Fifth Amendment
right to not testify at the grand jury.
93. After asserting his right, the NYPD placed
DeBlasio on modified duty, and transferred him to
an administrative position within the Medical Division.
94. In association with this modification, DeBlasio met with union officials and a union attorney
during which Richter told DeBlasio that Bratton
and Byrne created two lists – an “arrested” list and
a “fired” list.
95. DeBlasio was placed on the fired list.
96. On May 20, 2016, Richter told Capul,
Rodriguez, and Colon, in separate conversations,
that the Commissioner was seeking their retirements, and that the Commissioner wanted those
retirements effective by May 31, 2016.
97. Speaking to Colon, Richter said, in sum and
substance, that Colon had no choice but to retire,
because if he did not, the NYPD would file charges
against him, charges which were unspecified and
unknown.
98. Richter further reminded Colon that even if
he challenged the charges at a hearing, it would

59a
not matter because the findings are non-binding,
the Commissioner was already intent on terminating Colon, and the Commissioner would in fact terminate Colon notwithstanding the outcome of the
hearing.
99. Capul asked Richter what would happen if
he did not retire.
100. Richter similarly told Capul that the NYPD
would file charges against him (unspecified and
unknown at the time) and the Commissioner would
terminate him, notwithstanding a hearing’s outcome.
101. When speaking to Rodriguez, Richter said
that he needed Rodriguez to retire for political reasons and to protect Bratton’s legacy because
Rodriguez’s name had appeared in the newspaper.
102. However, in the same conversation, Richter
told Rodriguez that he did nothing wrong.
103. Similarly, Richter told Capul, in sum and
substance, that the “politics” of the matter required
his retirement, but that there were no allegations
of misconduct.
104. Richter further confirmed, in sum and substance, to Colon that there was no legitimate reason for the NYPD to demand his retirement either,
but Richter’s estimation was that it was a political
maneuver, relating to protecting Bratton’s legacy.
105. Richter suggested to Rodriguez and Capul
that the NYPD was exploring a number of ways for

60a
them to retire and that he would get back to them
with those options.
106. Upon information and belief, Bratton
leaked to the press that Plaintiffs were “tainted”
and he wanted them out of the NYPD to put the
scandal behind him.1
107. But Bratton’s motive was not benign or a
genuine attempt to remove wrong-doers from the
department as evidenced by the fact that Banks’s
retirement (and the retirement of other implicated
high ranking officials such as Deputy Chief Jimmy
McCarthy, Inspectors Ruel Stephenson and Brian
McGinn, and Deputy Inspectors Michael Endall
and Deddo) was not similarly sought.2
108. Richter advised that if Rodriguez and Capul
submitted their retirements, they could do so in a
normal manner with all of their accrued time.
109. Richter further told Rodriguez, Capul, and
Colon, that if they retired, they would receive standard NYPD retirement benefits, including a “Good
Guy Letter.”

1

The basis of this information and belief is press coverage and testimony in the Plaintiffs’ grievance hearing.
2
In fact, in 2018, according to the New York Times,
Banks was set to receive a promotion to Deputy Commissioner, but he suddenly chose, not only to decline the promotion,
but to retire completely from the NYPD “a day after a judge
approved a FBI wiretap that was part of a sprawling investigation in which the feds found more than $300,000 in ‘unexplained’ cash deposits into Banks’ accounts.”

61a
110. Moreover, Richter told Capul that the
NYPD would seek formal charges, though Richter
could not identify what those charges might be.
111. Rodriguez, Capul, and Colon asked Richter
if they could “run their time.”
112. “Running time” is standard practice for
NYPD members at all levels and at every rank.
113. Running time means that members may use
accrued leave time so that they do not have to
report to work, but they remain technically
employed by the City.
114. This has the effect of allowing members to
receive their regular salary while at the same time
continuing to accrue regular work benefits such as
pension contributions.
115. On May 24, 2016, Richter told Capul and
Rodriguez that they could run their time, but to
wait because the then Chief of Department, James
O’Neill was trying to save their jobs.
116. Based on his May 20, 2016 conversation
with Richter concerning the Commissioner’s intent
to terminate him at any costs, Colon capitulated to
the Commissioner’s demands and filed his retirement paperwork on May 24, 2016.
117. On May 27, 2016, Richter called Rodriguez
and Capul to tell them to go to the pension section
of the NYPD to submit their papers on May 31,
2016, run their time and then come back when the
dust had settled.

62a
118. On May 31, 2016, Rodriguez met with
Richter and other union officials to file his retirement papers with an effective retirement date of
May 31, 2018, the date his accrued time would be
depleted.
119. On May 31, 2016, Capul met with Richter
and other union officials to finalize his retirement
papers, selecting an effective date of August 31,
2018, the date his accrued time would be depleted.
120. On June 10, 2016, Byrne, via Richter,
issued DeBlasio a similar ultimatum—retire or
face demotion and the predetermined termination
decision from the Commissioner.
121. DeBlasio initially protested the ultimatum
to Richter telling him he would not take the offer,
to which Richter said, “don’t do it . . . they will
demote you and terminate you.”
122. Moreover, that Defendants refused to provide any basis to Plaintiffs as to why charges might
be filed or what those charges might consist of,
meant that Plaintiffs lacked any ability whatsoever
to determine their chances of success in defending
the as yet to be issued charges.
123. As to DeBlasio, unlike other Plaintiffs,
Richter said the ultimatum included forfeiture of
his accrued leave and vacation time.
124. DeBlasio questioned why he could not run
his time when he knew that others had been
allowed.

63a
125. Richter said that that was the ultimatum
issued by Byrne.
126. In orchestrating these actions against
Plaintiffs, Bratton was not concerned about the
Plaintiffs’ guilt or innocence, or the fact that no
allegations existed to support a basis to lawfully
remove the Plaintiffs from employment.
127. On June 20, 2016, the FBI arrested
Harrington, Grant, and two other lower ranking
officers from the licensing division in connection
with the Corruption.
128. That same day, Richter, at the direction of
Byrne, called Capul and Rodriguez to tell them
that the NYPD changed its mind and that they had
to waive all their accrued time by June 30, 2016.
129. Richter also said that Bryne threatened
Capul and Rodriguez that if they did not retire that
the NYPD would immediately demote them and
would initiate proceedings to terminate them.
130. As noted, the disciplinary proceedings were
form over substance, as the Commissioner had
already determined that Capul and Rodriguez
would be terminated.
131. By the mere act of demoting Capul and
Rodriguez, they would have lost significant benefits, including pay (which would have affected pension contributions and value), and the prestige
they had garnered as Deputy Chiefs, which could
affect future employment and job opportunities.

64a
132. The demand to retire immediately meant
that Capul and Rodriguez would lose the opportunity to “run” their accrued time of over two years.
133. On June 22, 2016, Richter told Capul that
Byrne said the CEA members should be “glad to
have the opportunity to retire” and that the
Harrington and Grant criminal complaints identified a cooperating complainant.
134. Byrne suggested that this cooperating witness would implicate some of the retiring members
in the Corruption.
135. Later, Plaintiffs would learn that the witness was Rechnitz, who in no way implicated any
Plaintiff, meaning that Byrne’s statement was a
bluff used to extract the Plaintiffs’ retirement.
136. On June 20, 2016, Richter told Colon that
running his time was no longer an option and that
he must give up his accrued time and be off the
books by June 30, 2016.
137. Byrne, via Richter, stated that Colon must
retire or face demotion and termination.
138. Under such threats and duress, Capul
amended his retirement date to June 29, 2016 from
August 31, 2018, but signed the form indicating,
“Under Duress/Protest.”
139. On or about June 24, 2016, Capul filed his
amended retirement making it effective June 30,
2016, and thus forfeited 186 days of vacation and
more than 2,800 hours of compensatory time.

65a
140. In his papers, Capul specifically stated:
This correspondence is to inform you of my
intention to change my lump sum retirement
date from 2400 hours 8/31/18 to 6/30/16. This
decision to waive my accrued time (Vacation,
Lost Time and Chart Days) is being done
under duress/protest. I was informed on Tuesday, 6/21/16 at approximately 1630 hours, by
[Richter] that [Byrne] stated that if I did not
change my retirement date to 6/30/16 (in
effect waiving all of my accrued time equaling
approximately 2 years and 2 months), I would
be demoted from Deputy Chief to Captain in
the NYPD. Additionally I would be subject to
Departmental Charges and Specifications and
face a Hearing, where “Termination Proceedings” would commence.
141. On or about June 27, 2016, Rodriguez filed
his amended retirement making it effective June
30, 2016, and thus forfeited 40 days of vacation and
more than 3,200 hours of compensatory time.
142. When submitting his papers, Rodriguez told
Richter the NYPD’s actions were not fair since he
did nothing wrong and was being forced to sign
papers under duress so as to not be demoted and
terminated.
143. In Rodriguez’s retirement papers, he stated
that he was doing it “under duress and threat of
demotion and termination” and that he was not
“involved in any criminal contact, nor [was he] subject of any department charges.”

66a
144. On June 30, 2016, Colon filed his amended
retirement under the same threats and thus forfeited more than 1,000 hours of compensatory time.
145. On July 15, 2016, DeBlasio retired, forfeiting 69 vacation days and more than 1,600 hours of
compensatory time.
146. In sum, prior to their forceful retirements,
Defendants did not provide to any Plaintiff with a
notice of charges, an explanation of evidence and/or
witnesses against them, or even a minimal opportunity to be heard.
147. After their retirements, Plaintiffs all
received “good guy” letters from Bratton.
148. In August 2016, Plaintiffs commenced the
grievance process against the City and the NYPD
arguing that their retirements were given under
duress and so the forfeiture of their accrued time is
void.
149. On July 16, 2018, impartial arbitrator
David N. Stein, Esq. agreed with the Plaintiffs and
determined that their retirements were given
under duress, and that the NYPD deprived them of
due process.
150. In Arbitrator Stein’s Opinion and Award,
he found that “Byrne engaged in a course of action
designed to force [Plaintiffs] out by threatening to
have a hearing which would culminate in their certain termination” and that such threats “comprised
a breach of [Plaintiffs’] statutory and due process
rights to a hearing based on evidence which Byrne

67a
steadfastly and consistently refused to outline in
even a general way.”
151. Moreover, Arbitrator Stein factually determined that at the time Plaintiffs’ retirements were
extracted, the Department had no information
whatsoever suggesting that the Plaintiffs had
engaged in actionable misconduct and that the
Department was threatening to take action which
it had no right to take.
152. On January 2, 2019, a jury acquitted Grant
of all charges.
153. After the trial, a juror told reporters that
Grant “never should have been charged,” and that
Banks should have been prosecuted instead.
154. Thus, the juror’s statements support an
inference that innocent officials, such as the Plaintiffs, were given up as scapegoats to protect higher
ranking officials, such as the Commissioner.
155. Indeed, the juror told reporters that the
entire jury panel believed that Grant was duped,
describing him as being a “flunky” and a “pawn.”
156. During the trial, subordinates who worked
for Michael Endall (“Endall”), Commanding Officer
of the License Division, testified that Endall was
part of the bribery scheme.
157. Upon information and belief, Endall was
never interviewed by the FBI about the Corruption.
158. Even though Bratton stated that anyone
touched by the investigation had to leave the

68a
NYPD, Endall was permitted to stay on the job for
an additional ten (10) months, until he was faced
with actual charges, which he accepted before he
retired. As well, other high-ranking officials were
allowed to stay, including McCarthy, McGinn, and
Deddo.
159. This testimony supported that Plaintiffs
were simply made the “fall guys”.
160. In fact, Endall’s immediate subordinates
offered testimony during trial directly implicating
Endall, Bratton, and other high-ranking officials
and IAB members, not criminally charged and not
driven out of the Department.
161. Moreover, Harrington was the only single
NYPD member convicted of any crime in connection with the Corruption, and his conviction was
made as part of a plea arrangement.
162. Further, NYPD insiders have opined that
Harrington’s alleged offenses are only questionably
federal crimes, and that typically the actions to
which he allocuted would be prosecuted only as
internal NYPD violations.
163. That Harrington was criminally prosecuted
again suggests that the NYPD was not interested
in internal investigations which might expose corruption at the highest levels of City government
and NYPD administration, but were instead looking merely for scapegoats.
164. Harrington was Banks’s executive officer,
and thus made an easy fall guy—an official high

69a
enough and close enough to Banks, yet not Banks
himself.
165. By leveraging Plaintiffs for their resignations, Defendants avoided potential wider probes
and exposure which could have resulted from
Plaintiffs’ defense of charges.
166. Indeed, if Defendants had issued charges
against the Plaintiffs, the Plaintiffs would have
been entitled to discovery.
167. On June 8, 2017, Rodriguez submitted a letter of reinstatement to the NYPD. To date,
Rodriguez has received no response to his request
to be reinstated.
168. On June 15, 2017, Capul submitted a letter
of reinstatement to the NYPD. To date, Capul
has received no response to his request to be reinstated.
169. On June 17, 2017, DeBlasio submitted a
letter of reinstatement to the NYPD. To date,
DeBlasio has received no response to his request to
be reinstated.
170. In June 2017, Colon submitted a letter of
reinstatement to the NYPD. To date, Colon has
received no response to his request to be reinstated.

70a
FIRST CAUSE OF ACTION
(Fourteenth AmendmentDue Process via 42 U.S.C. § 1983)
171. While acting under color of law, the individual Defendants constructively terminated the
Plaintiffs who had a protected property interest in
their continued employment. Prior to the termination, the individual Defendants did not provide to
Plaintiffs a notice of the charges against them, a
hearing, or other any other minimal opportunity to
be heard. The Defendants who made the decisions
causing the termination are high-level officials—
the Commissioner and Deputy Commissioners—
individuals at the highest levels of the NYPD command structure, individuals within the inner circle
of the Commissioner of Police and/or who are the
Commissioner of Police, and individuals with final
authority over employment decisions, including
those at issue here. Moreover, New York State and
City Law, as well as internal NYPD rules, provide
the procedure for terminating the Plaintiffs.
Accordingly, the individual Defendants’ acts were
not random and unauthorized.
172. Defendant, the City, is liable under Monell
v. Dep’t of Soc. Servs., because the Commissioner
directed, approved of, or acquiesced in the decisions causing the deprivations herein. Moreover,
the decisions herein constitute a policy of the City.
As discussed herein, the Defendants, in consultation with or at the direction of the Mayor, coordinated to terminate these Plaintiffs’ employments to

71a
effectuate the policy of finding “fall guys” who
would deflect and absorb negative press coverage of
the Corruption at the highest-levels of the NYPD
administration.
W HEREFORE , Plaintiffs demand judgment
against Defendants, where applicable, for all compensatory, emotional, physical, and punitive damages (where applicable), injunctive relief including
a temporary restraining order, preliminary injunction, and permanent injunction compelling Defendants to immediately reinstate Plaintiffs, liquidated
damages (where applicable), interest, and any other
damages permitted by law. It is further requested
that this Court grant reasonable attorneys’ fees
and the costs and disbursements of this action and
any other relief to which Plaintiffs are entitled.
Plaintiffs demand a trial by jury.
Dated: May 13, 2019
Syosset, New York
Respectfully submitted,
LAW OFFICES OF YALE POLLACK, P.C.
By: /s/ Yale Pollack
Yale Pollack, Esq.
66 Split Rock Road
Syosset, New York 11791
(516) 634-6340
ypollack@yalepollacklaw.com

72a
FAMIGHETTI & WEINICK, PLLC
By: /s/ Matthew Weinick
Matthew Weinick, Esq.
25 Melville Park Road, Suite 235
Melville, New York 11747
(631) 352-0050
mbw@fwlawpllc.com
Attorneys for Plaintiffs

